<html>
<title> - THE STATE OF CLIMATE SCIENCE AND WHY IT MATTERS</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]





 
                      THE STATE OF CLIMATE SCIENCE
                           AND WHY IT MATTERS

=======================================================================

                                HEARING

                               BEFORE THE

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           FEBRUARY 13, 2019

                               __________

                            Serial No. 116-1

                               __________

 Printed for the use of the Committee on Science, Space, and Technology
 
 
 
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
 


       Available via the World Wide Web: http://science.house.gov
       
       
       
       
                            _________ 

                U.S. GOVERNMENT PUBLISHING OFFICE
                   
35-231 PDF               WASHINGTON : 2019             
       
       

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

             HON. EDDIE BERNICE JOHNSON, Texas, Chairwoman
ZOE LOFGREN, California              FRANK D. LUCAS, Oklahoma, 
DANIEL LIPINSKI, Illinois                Ranking Member
SUZANNE BONAMICI, Oregon             MO BROOKS, Alabama
AMI BERA, California,                BILL POSEY, Florida
    Vice Chair                       RANDY WEBER, Texas
CONOR LAMB, Pennsylvania             BRIAN BABIN, Texas
LIZZIE FLETCHER, Texas               ANDY BIGGS, Arizona
HALEY STEVENS, Michigan              ROGER MARSHALL, Kansas
KENDRA HORN, Oklahoma                NEAL DUNN, Florida
MIKIE SHERRILL, New Jersey           RALPH NORMAN, South Carolina
BRAD SHERMAN, California             MICHAEL CLOUD, Texas
STEVE COHEN, Tennessee               TROY BALDERSON, Ohio
JERRY McNERNEY, California           PETE OLSON, Texas
ED PERLMUTTER, Colorado              ANTHONY GONZALEZ, Ohio
PAUL TONKO, New York                 MICHAEL WALTZ, Florida
BILL FOSTER, Illinois                JIM BAIRD, Indiana
DON BEYER, Virginia                  VACANCY
CHARLIE CRIST, Florida               VACANCY
SEAN CASTEN, Illinois
KATIE HILL, California
BEN McADAMS, Utah
JENNIFER WEXTON, Virginia


                         C  O  N  T  E  N  T  S

                           February 13, 2019

                                                                   Page
Hearing Charter..................................................     2

                           Opening Statements

Statement by Representative Eddie Bernice Johnson, Chairwoman, 
  Committee on Science, Space, and Technology, U.S. House of 
  Representatives................................................     8
    Written Statement............................................    10

Statement by Representative Frank D. Lucas, Ranking Member, 
  Committee on Science, Space, and Technology, U.S. House of 
  Representatives................................................    12
    Written Statement............................................    14

                               Witnesses:

Dr. Robert Kopp, Director, Rutgers Institute of Earth, Ocean, and 
  Atmospheric Sciences, and Professor, Department of Earth and 
  Planetary Sciences, Rutgers University
    Oral Statement...............................................    17
    Written Statement............................................    19

Dr. Jennifer Francis, Senior Scientist, Woods Hole Research 
  Center
    Oral Statement...............................................    33
    Written Statement............................................    35

Dr. Joseph Majkut, Director of Climate Policy, Niskanen Center
    Oral Statement...............................................    41
    Written Statement............................................    43

Dr. Kristie L. Ebi, Rohm and Haas Endowed Professor in Public 
  Health Sciences, and Director, Center for Health and the Global 
  Environment, University of Washington
    Oral Statement...............................................    54
    Written Statement............................................    56

Dr. Natalie M. Mahowald, Irving Porter Church Professor of 
  Engineering, Faculty Director for the Environment, Atkinson 
  Center for a Sustainable Future, Cornell University
    Oral Statement...............................................    76
    Written Statement............................................    78

Discussion.......................................................   115

             Appendix I: Answers to Post-Hearing Questions

Dr. Robert Kopp, Director, Rutgers Institute of Earth, Ocean, and 
  Atmospheric Sciences, and Professor, Department of Earth and 
  Planetary Sciences, Rutgers University.........................   152

Dr. Jennifer Francis, Senior Scientist, Woods Hole Research 
  Center.........................................................   157

Dr. Joseph Majkut, Director of Climate Policy, Niskanen Center...   162

Dr. Kristie L. Ebi, Rohm and Haas Endowed Professor in Public 
  Health Sciences, and Director, Center for Health and the Global 
  Environment, University of Washington..........................   168

            Appendix II: Additional Material for the Record

Letter submitted by Representative Lizzie Fletcher, Committee on 
  Science, Space, and Technology, U.S. House of Representatives..   246

Report submitted by Representative Bill Foster, Committee on 
  Science, Space, and Technology, U.S. House of Representatives..   248

Article submitted by Representative Sean Casten, Committee on 
  Science, Space, and Technology, U.S. House of Representatives..   269



                      THE STATE OF CLIMATE SCIENCE

                           AND WHY IT MATTERS

                              ----------                              


                      WEDNESDAY, FEBRUARY 13, 2019

                  House of Representatives,
               Committee on Science, Space, and Technology,
                                                   Washington, D.C.

    The Committee met, pursuant to notice, at 10:01 a.m., in 
room 2318, Rayburn House Office Building, Hon. Eddie Bernice 
Johnson [Chairwoman of the Committee] presiding.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Chairwoman Johnson. This hearing will come to order. 
Without objection, the Chair is authorized to declare a recess 
at any time.
    Good morning, and welcome to today's hearing entitled, 
``The State of Climate Science and Why it Matters.'' Let me 
first welcome everyone to the full Committee hearing of the 
Committee on Science, Space, and Technology for the 116th 
Congress. I'm looking forward to a productive and collegial 
meeting today, one in which rigorous scientific discourse can 
help enable the creation of a sound public policy.
    Every committee is meeting because we've had to alter 
committee meetings this week because we've had two funerals. 
And so we will have Members coming and going, and we hope that 
you'll understand.
    I also want to welcome all of our distinguished witnesses 
and thank them for their flexibility in making themselves 
available to participate in this rescheduled hearing.
    Today's hearing is the first in what will be multiple 
climate-change-related hearings this Congress. Following the 
release of the IPCC (Intergovernmental Panel on Climate Change) 
Special Report on Global Warming of 1.5 +C, and the National 
Climate Assessment last year, it is clear that we're 
responsible for our planet warming at an alarming rate, and we 
already are feeling the impacts of this warming today. Setting 
the stage with a discussion of the most relevant and up-to-date 
scientific evidence from these and other reports will allow us 
to better understand the climate-related impacts we are 
experiencing in all of our districts. The evidence of continued 
unmitigated emissions of greenhouse gases is clear. Our coastal 
communities are dealing with sea-level rise and ocean 
acidification, and all communities are dealing with more severe 
weather incidences and the increased exposure to extreme heat 
and poor air quality.
    Today's discussion on climate science is important to 
deepening our fundamental understanding of why the climate is 
changing and how this manifests in ways that impact society. It 
will also help us as we turn our focus to the role of science 
and innovative technology development to devise adaptation and 
mitigation strategies, which will have numerous positive 
benefits for our economy, our safety and security, and our 
public health. I am glad we have the leading experts in these 
fields who worked closely on these reports to guide our 
discussion.
    I also want to note that the impacts of climate change are 
not limited to what is described in these climate science 
reports. Just last week, NOAA's (National Oceanic and 
Atmospheric Administration) State of the Climate Report for 
2018 found that it was the wettest year for the contiguous 
United States in the past 35 years. NASA (National Aeronautics 
and Space Administration) and NOAA also found that last year 
had the fourth-highest global surface temperature since 1880. 
It has almost become a given that we can expect record-breaking 
temperatures every year, especially since the past 5 years have 
been the warmest in modern record.
    Though this Administration has regrettably chosen to ignore 
the findings of its own scientists in regards to climate 
change, we as lawmakers have a responsibility to protect the 
public's interest. I plan to do this by making sure this 
Committee is informed by the most relevant and up-to-date 
science as we work to conduct our legislative and oversight 
responsibilities. The Science Committee oversees much of the 
Federal climate research, and as well as the development and 
demonstration of new and innovative technologies, which makes 
our role as Members of this Committee critical to preparing our 
country to deal with climate change.
    I look forward to kicking off a fruitful and informative 
discussion that will continue throughout this Congress on why 
we need to act on climate change now.
    [The prepared statement of Chairwoman Johnson follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
       
    Chairwoman Johnson. Now I will recognize the Ranking 
Member's opening statement.
    Mr. Lucas. Thank you, Chairwoman Johnson, and I would like 
to again thank you for holding this hearing and providing a 
platform to hold a constructive dialog on the issue of climate 
change.
    I'm proud to be a western Oklahoma farmer and to represent 
a resilient community of farmers. As any farmer can tell you, 
we are especially dependent on the weather. Droughts and heat 
waves come and go naturally, but the changing climate has 
intensified their impacts.
    We know the climate is changing and that global industrial 
activity has played a role in this phenomenon. But our 
communities, like the farmers and ranchers in my district, need 
to know more about the extent to which a changing climate 
affects short- and long-term weather patterns.
    I believe the Federal Government has a responsibility to 
prioritize research so that we can better understand the 
complex relationship between climate and weather and increase 
preparedness in our communities. I also believe it's critical 
that America leads the world in developing the next-generation 
technologies to address the effects of climate change.
    Fortunately, we have a unique opportunity here on the 
Science Committee to promote research and technology solutions. 
American industry, innovators, and researchers at our national 
labs are pioneering technologies that capture carbon emissions 
from coal and natural gas, batteries that store energy from 
intermittent energy sources like wind and solar, and advanced 
nuclear reactors that can provide cleaner, more affordable 
power. These technologies have the potential to reduce 
greenhouse gas emissions around the world and ensure American 
energy dominance.
    America has always led the way in technology advances. In 
1919, my great aunt's prized possession was a phonograph, a 
mechanical device which was then state-of-the-art technology. A 
hundred years later, we listen to music on our cell phones, and 
no one could have predicted the incredible leap forward in 
technology. Americans are always innovating, finding surprising 
ways to meet new challenges. Energy is no exception. Hydraulic 
fracking revolutionized energy production, unlocking a vast 
American energy resource that was unimaginable just a decade 
ago. Developed by industry in cooperation with the national 
labs, fracking reduced the environmental footprint of energy 
production and has brought cleaner, cheaper natural gas to the 
market around the world.
    Through innovation, we can repeat this incredible success. 
The next technological breakthrough is right around the corner, 
and if we want to succeed, we must continue to focus on 
realistic, technology-driven solutions to climate change that 
can compete in today's economy. We won't succeed in pie-in-the-
sky policies that demand 100 percent renewable energy at the 
expense of reliable power from nuclear and fossil fuels and 
raise energy prices for businesses and consumers.
    Today, we'll hear from Dr. Joseph Majkut, the Director of 
Climate Policy for the Niskanen Center, who will stress that 
it's essential that we take a realistic, innovative, and 
competitive approach to addressing climate change. I share his 
belief that by investing in research to develop carbon capture, 
carbon use, advanced nuclear and renewable energy technologies, 
we can incentivize innovation and growth in these industries 
and reduce carbon emissions in the process. Innovation is good 
for the global environment and the American economy.
    I take environmental policy very seriously. This dedication 
comes from being raised by people who lived through the worst 
prolonged environmental disaster in American history, the great 
drought and Dust Bowl of the 1930s. We have a responsibility to 
ensure events like the Dust Bowl never occur again.
    While this Committee cannot control the weather, we can 
prioritize investments in basic science and energy research 
that will revolutionize the global energy market. America led 
the world in coal, oil, and gas. Now we must lead again, and 
partner with industry to develop breakthrough energy 
technologies and make our existing energy sources cleaner and 
more affordable.
    I thank our witnesses for being here today, and I yield 
back the balance of my time, Madam Chairman.
    [The prepared statement of Mr. Lucas follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
       
    Chairwoman Johnson. Thank you very much, Mr. Lucas.
    If there are Members who wish to submit additional opening 
statements, your statements will be added to the record at this 
point.
    At this time I'd like to introduce our witnesses. Our first 
witness is Dr. Natalie Mahowald, the Irving Porter Church 
Professor of Engineering, and the Faculty Director for the 
Environment of the Atkinson Center for a Sustainable Future at 
Cornell University. Due to the weather-related travel delays, 
she's joining us through a video link from Ithaca, New York. 
Her research looks at natural feedbacks in the climate system, 
and Dr. Mahowald was the lead author on the IPCC Special Report 
on 1.5 +C Global Warming
released last year and the IPCC Fifth Assessment from Working 
Group 1 on the physical science of climate change in 2013.
    She received her Ph.D. in meteorology from the 
Massachusetts Institute of Technology, and we now will 
recognize--she'll be our first witness.
    Our second witness is Dr. Robert Kopp, who is Director of 
Rutgers Institute of Earth, Ocean, and Atmospheric Sciences, 
and Professor in the Department of Earth and Planetary Sciences 
at Rutgers University. He also serves as Co-Director of 
Rutgers' Coastal Climate Risk and Resilience Initiative. Dr. 
Kopp's research focuses on past and future sea-level change and 
the utilization of climate risk information and decisionmaking. 
He is a lead author of volume 1 of the Fourth National Climate 
Assessment (NCA 4) released last year and the IPCC's Sixth 
Assessment Report, which is due out in 2021.
    Dr. Kopp received his Ph.D. in geobiology from the 
California Institute of Technology.
    Our third witness, Dr. Jennifer Francis, who is a Senior 
Scientist at the Woods Hole Research Center. Dr. Francis' 
research focuses on climate change impacts in the Arctic and 
how that affects weather around the world, especially how a 
warming Arctic may lead to a weakened jet stream. Dr. Francis 
is regularly quoted in media outlets.
    Dr. Francis received her Ph.D. in atmospheric sciences from 
the University of Washington.
    Our fourth witness is Dr. Joseph Majkut from the Niskanen 
Center. He is an expert on climate science policy, and risk and 
uncertainty analysis for decisionmaking, and is frequently 
cited by media outlets on climate scientific research.
    He received his Ph.D. in atmospheric and oceanic sciences 
from Princeton University.
    Our final witness, Dr. Kristie Ebi, who is the Director of 
the Center for Health and the Global Environment, or CHanGE 
program, and the Rohm and Haas Endowed Professor in Public 
Health Sciences at the University of Washington. Dr. Ebi's 
research includes estimating current and future health risks of 
climate change and estimating the health co-benefits of 
mitigation policies and technologies. Dr. Ebi was the chapter 
lead on the Human Health Chapter, volume 2, of the Fourth 
National Climate Assessment released last year. She also co-
chairs the National Academies Committee to Advise a U.S. Global 
Change Research program.
    Dr. Ebi received her Ph.D. in epidemiology from the 
University of Michigan.
    As our witnesses shall know, you will each have 5 minutes 
for your spoken testimony. Your written testimony will be 
included in the record of the hearing. When all of you have 
completed your spoken testimony, we will begin a round of 
questions. Each Member will have 5 minutes to question the 
panel.
    And we will start with a witness that is appearing on the 
screen, Dr. Mahowald.
    [Audio malfunction in hearing room.]
    Chairwoman Johnson [continuing]. We can't--let's go to Dr. 
Kopp and then return when we get the technology working.

                 TESTIMONY OF DR. ROBERT KOPP,

          DIRECTOR, RUTGERS INSTITUTE OF EARTH, OCEAN,

                   AND ATMOSPHERIC SCIENCES,

             AND PROFESSOR, DEPARTMENT OF EARTH AND

             PLANETARY SCIENCES, RUTGERS UNIVERSITY

    Dr. Kopp. All right. Well, thank you, Chairwoman Johnson, 
Ranking Member Lucas, and Committee Members for inviting me to 
speak today. My name is Robert Kopp. I am the Director of the 
Rutgers Institute of Earth, Ocean, and Atmospheric Sciences and 
a Professor at Rutgers University. My research focuses on past 
and future sea-level change and on the interactions between 
climate change and the economy.
    I served as one of the 29 lead authors of the fourth 
volume--of the first volume of the Fourth National Climate 
Assessment, and I was invited here to speak to the fourth 
assessment. I should note that I'm doing so in my personal 
capacity, not to represent the U.S. Global Change Research 
Program or Rutgers.
    The Fourth National Climate Assessment provides an up-to-
date assessment of the scientific understanding of climate 
change, its current effects on the United States, and its 
potential future impacts. It draws out key findings from the 
massive body of peer-reviewed science to support scientifically 
informed climate risk management. Its first volume focuses on 
the physical science; the second on impacts, risks, and 
adaptation. The report's nearly 2,000 pages are data-driven and 
extensively referenced. Both volumes underwent detailed 
transparent review processes, including open reviews by 
external experts in the general public and thorough reviews by 
independent experts convened by the National Academies.
    The process of drafting the National Climate Assessment was 
painstaking and complex, but its fundamental findings are 
simple and urgent. First, climate change is real, it is 
happening now, and humans are responsible for it. The planet is 
running a fever. Its average temperature has increased by 
nearly 2 +F since 1900 with humans responsible for essentially 
all of the warming since 1950.
    Second, climate change isn't an issue for the distant 
future. It's already affecting Americans in every region of the 
country. Across the country, heat waves are becoming more 
frequent, heavy rainfall more intense, and coastal flooding 
more common as a result of climate change and sea-level rise. 
Studies show that climate change intensified the dry hot summer 
of 2011 in Texas and Oklahoma, the recent drought in 
California, and the rainfall of Hurricane Harvey in 2017.
    Third, climate change is not just an environmental 
challenge. It's an economic challenge, an infrastructure 
challenge, a public-health challenge, and a national-security 
challenge. As the report notes, and I quote, ``In the absence 
of more significant global mitigation efforts, climate change 
is projected to impose substantial damages on the U.S. economy, 
human health, and the environment,'' particularly in scenarios 
with limited adaptation.
    Fourth, every amount--every additional amount of greenhouse 
gas emitted makes climate change more severe. In order to 
stabilize global climate at any level, human--any level of 
warming, human emissions of carbon dioxide must be brought as 
close to zero as possible with any continued emission of 
CO<INF>2</INF> balanced by human removal of carbon dioxide from 
the atmosphere, whether that's by expanding forests or using 
new, little-tested technologies. In other words, to stabilize 
the global climate, net global carbon dioxide emissions must be 
brought to zero. The faster we reduce our emissions, the less 
severe the effects and the lower the risk of unwelcome 
surprises.
    Fifth, though the pace is not yet adequate to minimize 
climate risk, Americans are already starting to respond by 
reducing emissions and beginning to adapt to climate-change 
impacts. As the report notes, 110 cities, several States, and 
an increasing number of companies have adopted emissions-
reduction targets. The report highlights adaptation planning 
efforts by cities and transport systems, the use of innovative 
farming techniques to deal with wet and dry extremes, and 
efforts to measure--to manage water scarcity in places like the 
Colorado River basin and Texas' Edwards Aquifer. These 
mitigation and adaptation efforts need to grow dramatically and 
rapidly to effectively manage climate risk.
    In conclusion, the National Climate Assessment shows that 
climate change is real, it's here, and we humans are 
responsible for it. To stabilize the global climate, we need to 
bring net global greenhouse gas emissions to zero. The sooner 
we do this, the smaller the risks to our economy, health, 
infrastructure, and security that we will have to manage. But 
even with strong emissions reductions, there will still be 
major adaptation challenges ahead. It's therefore essential 
that climate change become a routine and integrated part of 
decisionmaking at all levels, public and private, Federal, 
State, and local.
    Thank you for holding this important hearing today. It's my 
hope that, as the Science Committee, you will look closely at 
how to advance the climate science enterprise in a manner that 
supports climate risk management.
    [The prepared statement of Dr. Kopp follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    Chairwoman Johnson. Thank you very much, Dr. Kopp. Do we 
have that ready yet? OK. We'll move to Dr. Francis.

               TESTIMONY OF DR. JENNIFER FRANCIS,

          SENIOR SCIENTIST, WOODS HOLE RESEARCH CENTER

    Dr. Francis. Good morning. My name is Jennifer Francis. I'm 
an atmospheric scientist at the Woods Hole Research Center in 
Massachusetts, and I study the connections between climate 
change and extreme weather. Thank you, Chairwoman Johnson and 
Members of the Committee, for the opportunity to testify here 
today.
    It's not your imagination. Extreme weather events have 
become more frequent in recent decades. If we could have figure 
1.
    [Slide.]
    Dr. Francis. According to this analysis by Munich Re, one 
of the foremost reinsurance companies in the world, the 
occurrence of extreme weather events has nearly tripled since 
the 1980s. They are shown by the green, blue, and orange bars 
in this figure.
    Images of recent extreme weather events are etched into our 
memories: Neighborhoods flooded by feet of rain unleashed by 
Hurricanes Harvey and Florence, docks sitting high and dry in 
California's reservoirs, and a sunken New Jersey roller coaster 
in the wake of Superstorm Sandy to name only a few. Yes, 
extreme weather has always happened, but there's no question 
that it's more vicious now, and all the signs point to it 
getting worse as the globe continues to warm under a thickening 
blanket of greenhouse gases.
    Before I go any further, let's clear up a few definitions 
that sometimes cause confusion. Climate change versus global 
warming: Climate change means all the ways that the climate 
system is changing, while global warming is just one of those 
ways. Climate versus weather: Climate is the average of all the 
weather that occurs at a particular location, while weather is 
the day-to-day swings in temperature and precipitation. Think 
of climate as your personality and weather as your mood on any 
given day.
    The links between climate change and extreme weather are a 
hot topic of scientific research. Some of the connections are 
straightforward. For example, global warming is making heat 
waves more intense and persistent and therefore more deadly. 
And as the air and oceans warm, evaporation also increases, 
which fuels an uptick in heavy precipitation events. The warmer 
oceans are also fueling rapid intensification of tropical 
storms, and because sea level is higher, storm surges are doing 
more damage now. On a happier note, though, fewer low-
temperature records are being broken. All of these changes are 
clearly tied to a warming planet.
    Other less straightforward connections are emerging as 
well. The polar vortex has been in the news a lot lately, so 
let's start with winter extremes. The polar vortex is a frigid 
pool of air encircled by strong winds that sits up high above 
the Arctic only during winter. Recent studies suggest it has 
been weakening and deforming more often lately, and when that 
happens, extreme cold and hot temperatures strike the northern 
hemisphere.
    If I could at the next figure, please.
    [Slide.]
    Dr. Francis. This map of temperature departures during the 
recent Eastern cold snap demonstrates this clearly, so even 
though cold records are being broken less often, severe cold 
spells and heat waves will still happen.
    Turning southward, global warming appears to be widening 
the tropics. This may sound like a good thing, but it's causing 
abnormal heat and drought in temperate regions such as 
Australia, southern California, and South Africa. We're also 
learning that earlier spring snow melt is causing high latitude 
land areas to dry out and warm up faster. This creates land 
temperature patterns that can trap summer weather systems and 
make them stagnant. Studies have linked deadly summer heat 
waves and floods to this change in the climate.
    Finally, rapid Arctic warming may be favoring weather 
regimes that exacerbate drought, heat, and wildfires in our 
Western States while stacking the deck toward cool and stormy 
conditions in the East. Remember the parade of bomb cyclones 
that struck the eastern seaboard last winter? This pattern was 
responsible.
    In a nutshell, we know that our atmosphere is warmer and 
wetter, which alters every weather event that happens now. It's 
relatively easy to determine that climate change made Harvey's 
rainfall more intense, but it's much harder to say whether 
Harvey would have stalled over Houston in the absence of 
climate change. There's no doubt that the Arctic has warmed 
much faster than elsewhere, but whether Arctic air is surging 
southward more frequently now because of climate change is a 
cutting-edge research question.
    This is just a sampling of the many topics being studied in 
our universities and research laboratories, the results of 
which are crucial to understanding climate change impacts, 
knowledge that will help decisionmakers and each of us prepare 
for a future with even more destructive weather extremes. 
Clearly more work is needed to confirm or reject these complex 
relationships, though many are already coming into sharp focus.
    Thank you again for inviting me to be here.
    [The prepared statement of Dr. Francis follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    Chairwoman Johnson. Thank you, Dr. Francis.
    Dr. Majkut?

                TESTIMONY OF DR. JOSEPH MAJKUT,

          DIRECTOR OF CLIMATE POLICY, NISKANEN CENTER

    Dr. Majkut. Good morning, and thank you for having me, 
Chairwoman Johnson, Ranking Member Lucas, Members of the 
Committee.
    My name is Joseph Majkut, and I am the Director of Climate 
Policy at the Niskanen Center, which is a 501(c)(3) located 
here in Washington. We work to promote public policy to advance 
an open society and particularly in climate we promote a 
mainstream understanding of climate science. It's nothing to be 
afraid of. And we aim to better characterize the risks of 
climate change. And on the policy side we support market-based 
policies to reduce greenhouse gas emissions.
    The Committee asked that we comment on the recent United 
Nations' Intergovernmental Panel on Climate Change's Special 
Report on Global Warming of 1.5 +C, as well as the Fourth 
National Climate Assessment prepared by the USGRCP (U.S. Global 
Change Research Program), and I'd like to offer a brief summary 
of those reports.
    Climate change is real, and global emissions of greenhouse 
gases are driving latter-day global warming. Manifestations of 
that warming are increasingly observed, as Dr. Francis just 
told us in great detail, and attributed to global emissions as 
well. But these are early days, so many of the changes 
scientists expect to see are either subtle or undetectable at 
high confidence.
    Yet as climate change continues, more severe and perverse 
effects will manifest themselves causing economic harms and 
damages to individuals, ecosystems, and other things that we 
tend to be concerned about. The science tells us also that 
limiting climate change means ceasing global emissions, and 
that's a challenging thing to do.
    The goals articulated in international agreements, that is 
limiting warming to 1.5 or 2 +C globally are probably unlikely 
given that they would require global emissions to fall by 45--
or 25 percent by 2030 and further from there. That doesn't mean 
that the impulse to do that is unjustified given the risks we 
face. Those emissions reductions, however, sit in stark 
contrast to what we've seen over the last few decades. To even 
get close, we'll need significant innovation in low-carbon 
technology, finance, and market design in order to be able to 
provide reliable, affordable, and globally accessible low-
carbon energy.
    Given the present circumstance, how should this Committee 
respond this Congress? I've got three areas that I think the 
Committee should point its attention to. First, the time to 
talk about solving climate change has really passed us. We're 
managing a chronic condition, and we cannot place the burden on 
reducing global emissions alone. Rather, we must prioritize 
reducing social--societal vulnerability and adapting to climate 
change where we can. While this will largely be an effort for 
the private sector and local government, those efforts will be 
bolstered by continued Federal support for research into 
climate change's effects and the risks that our communities 
face. This research can be disseminated through social and 
professional networks, and devices like the National Climate 
Assessment provide a very good venue for that work.
    Second, a world aiming for 2 +C will require a portfolio of 
low-carbon energy sources, including carbon capture and storage 
for fossil fuels. In a world aiming for 1.5 +C, processes that 
remove carbon from the atmosphere will need to be deployed at a 
scale capturing up to 1/4 of today's emissions, and that is a 
mind-boggling number for an infant technology. Both of these 
will be large industries, but the technologies are so infant 
that they need your support. Faster progress is possible 
through smart investments in advanced research, which deserve 
the Committee's continued attention and support.
    Third, we have to research alternatives. Last Congress I 
testified before your Subcommittees on Environment and Energy 
on a research and governance agenda for so-called geo-
engineering technologies, which could sever the link between 
global emissions and warming. While we had a productive 
hearing, there's still much that this Committee could do to 
support early research into these technologies and help 
establish a set of norms under which that research could be 
done.
    Thank you for inviting me to testify, and I look forward to 
a robust discussion.
    [The prepared statement of Dr. Majkut follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
   
    Chairwoman Johnson. Thank you very much, Dr. Majkut.
    Dr. Ebi?

                TESTIMONY OF DR. KRISTIE L. EBI,

                ROHM AND HAAS ENDOWED PROFESSOR

                 IN PUBLIC HEALTH SCIENCES, AND

                DIRECTOR, CENTER FOR HEALTH AND

                THE GLOBAL ENVIRONMENT (CHanGE),

                    UNIVERSITY OF WASHINGTON

    Dr. Ebi. Thank you, Chairman Johnson, Ranking Member Lucas, 
distinguished Members of the Committee, for the opportunity to 
speak with you today. As you know, my name is Kristie Ebi. I've 
got more than 20 years' experience----
    [Audio malfunction in hearing room.]
    Dr. Ebi. Do you want me to start over? Sorry about that. 
The evidence is clear. Climate change is adversely affecting 
the health of Americans. Climate change is heating the land and 
oceans, melting snow and ice, increasing the frequency and 
severity of extreme weather events, and raising sea levels. All 
of these have significant implications for our health and well-
being, as well as for our public health and healthcare 
infrastructure. It is timely and appropriate for Congress to 
understand this issue of critical national importance so that 
effective actions can be taken to protect and promote the 
health of all Americans now and in the future.
    Climate change affects human health by altering exposures 
to heat waves, floods, droughts, and other extreme events by 
increasing the prevalence of some vector, food, and water-borne 
infectious diseases; by reducing the quality and safety of our 
air, food, and water; and by worsening our mental health and 
well-being. Climate change also can affect health by, for 
example, undermining economic productivity and reducing labor 
productivity.
    As the Fourth U.S. National Climate Assessment highlights, 
Americans are already suffering and dying from our changing 
climate with primarily negative risks projected to increase 
with each additional unit of warming. The IPCC's Special Report 
on Global Warming of 1.5 +C, which assessed research in the 
U.S. and globally, concluded that lower risks are projected at 
1.5, than at 2 +C for heat-related morbidity and mortality, for 
ozone mortality if the precursor emissions remain high. Risks 
from vector-borne diseases such as malaria, dengue fever, and 
Lyme disease are projected to increase with warming from 1.5 to 
2 +C, including potential shifts in their geographic range to 
areas previously unexposed to these diseases.
    Individuals and communities are differentially exposed to 
climate-related hazards and disproportionately affected by 
climate-related health risks. Populations experiencing greater 
risk include children, older adults, low-income communities, 
and some communities of color.
    The adverse health impacts of climate change have many 
potential economic and social costs, including medical expenses 
and caregiving services, as well as costs that are harder to 
quantify such as those associated with pain, suffering, 
inconvenience, or reduced enjoyment of leisure activities. 
Further, our healthcare infrastructure is vulnerable to extreme 
events with, for example, many hospitals and healthcare clinics 
located in coastal regions subject to flooding.
    The magnitude and pattern of future health risks depend on 
the rapidity and extent of greenhouse gas emission reductions 
and on the level of ambition and investment in adaptation. Many 
projected risks and costs which, in some cases, may be 
extremely unaffordable, can be reduced by taking immediate 
action to increase preparedness for effectively managing health 
and healthcare infrastructure risks. Examples include 
developing early notification and response plans such as for 
extreme heat, implementing integrated surveillance of climate-
sensitive infectious diseases, and incorporating climate 
projections into emergency preparedness and disaster risk-
management initiatives. These steps can protect health now and 
provide a basis for more effective adaptation to our future 
climate.
    Nearly all mitigation policies to reduce greenhouse gas 
emissions have benefits for health for Americans in the near- 
and in the long-term by reducing premature mortality and by 
avoiding hospitalizations. By the end of this century, 
thousands of premature deaths could be avoided and hundreds of 
millions of dollars in health-related economic benefits gained 
each year under a pathway of lower greenhouse gas emissions.
    Finally, on a personal note, I grew up in Senator Dingell's 
district. He was a very dedicated public servant who helped 
write most of our major environmental and energy laws that were 
passed by Congress. My condolences to his family, his friends, 
and his colleagues. Thank you.
    [The prepared statement of Dr. Ebi follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
   
    
    Chairwoman Johnson. Thank you very much.
    We're going to return now to our first witness. No? She's 
not quite ready.
    Let me thank all of the witnesses. We now will go to our 
first round of questions. I will go through a few questions I 
have at the beginning.
    Last month's government shutdown lasted for 35 days. During 
that time, many Federal science activities were put on hold. 
While some essential activities continued like the National 
Weather Service forecast, many other activities stopped 
entirely like updates to NOAA's climate and hurricane models. 
There were also staffing issues like the National Center for 
Environmental Protection, which had just one person out of 200 
on staff during the shutdown.
    These questions are for any or all of you that would like 
to respond. First question, what are the short- and long-term 
impacts of a government shutdown on Federal climate science? 
And with the United States currently a global leader in climate 
science, how do government shutdowns risk the U.S. leadership 
in producing top climate science? And what impact does it have 
on the rest of the world? We are heading to another potential 
shutdown, but hopefully it won't occur. But what are the top 
risks of our climate science enterprise when or if another 
shutdown is a reality?
    You can start, Dr. Kopp.
    Dr. Kopp. Sure. I'll just give a couple quick examples. So 
during the last shutdown, I was at an IPCC lead author meeting 
in Vancouver, and there were several of our co-authors who 
couldn't make it there because of the shutdown. And then of 
course, if you're looking at a large collaboration, having 
people who not only can't be there but also can't even be there 
remotely sort of makes you an unreliable partner, right? And so 
if you ask, how does this affect U.S. leadership, well, if we 
are an unreliable partner in international collaborations, that 
does make it harder for us to be a leader.
    Another example, one of my co-authors at NOAA, we're 
working on a paper together, he didn't have access to his 
computer or data during the shutdown, and so all of the 
analyses that might've happened during that time were stalled. 
It's one thing if this is a couple of weeks, but if it's a 
chronic condition, this really accumulates.
    Dr. Francis. I would just add to what Dr. Kopp has 
mentioned. There were several major scientific conferences that 
occurred during the shutdown, and a large number of government 
employees were just unable to attend and present the research 
that they'd been working on for literally years, which is a 
huge detriment to their careers. Also, several field programs 
that were supposed to occur could not, so in some cases those 
field programs maybe won't happen ever or at least they'll be 
delayed for a year or more because there's a lot of planning 
and logistics that have to be lined up to make those field 
programs work. There was also a big delay in processing 
proposals for more research or processing reports on that 
research, and all of that just delays the progress of science.
    Chairwoman Johnson. Thank you.
    Dr. Ebi. To add to the other comments, everything you heard 
so far this morning about climate change is driven by data, and 
those data need to be collected. Equipment is not perfect, as 
we saw so far this morning, and someone needs to go out and fix 
equipment. There are various things that need to take place to 
make sure that you continue those data series. You can't make 
up data that you can't go back and regenerate what you didn't 
collect, and so having these gaps where we don't have our 
critical Federal employees taking care of collecting the data 
that we need so critically to provide the science you need to 
make informed decisions.
    Chairwoman Johnson. Thank you very much. Now, according to 
the IPCC's special report, limiting global warming to 1.5 
centigrade over the long-term would, compared to 2, provide 
clear benefits to people and natural ecosystems. However, it 
would also require rapid far-reaching and unprecedented changes 
in all aspects of society to achieve decarbonization of our 
economy.
    So for each panelist, if you would just comment, what are 
the potential costs of failing to limit warming to 1.5 
centigrade? The witnesses can speak to their own areas of 
expertise in societal, economic, and environmental impacts.
    Dr. Kopp. Well, I mean, there are a number of risks that 
accumulate the more carbon dioxide we put in. More heat waves 
lead to more mortality, as we've heard from our other speakers. 
Sea-level rise will be somewhat higher under 2 degrees versus 
1.5 degrees, and so that leads to more coastal flooding.
    Both of those goals are heavy lifts, and so, the most 
important thing to keep in mind, I would argue, is that to 
stabilize climate at any level we need to get net global 
greenhouse gas emissions to zero. And I think it's important we 
recognize the more warming we let happen, the more the risks 
accumulate, but we've got to keep that goal as our centerpiece, 
net global--net-zero global greenhouse gas emissions.
    Dr. Francis. And I would just reiterate the fact that we 
are already seeing a large increase in the occurrence of 
extreme weather events and the intensity of many of those types 
of events, and that's only going to get worse as the globe 
continues to warm.
    And I just wanted to add also that it may seem arbitrary to 
pick 1.5 or 2.0-degree warming of the earth, but that's 
actually a very useful thing to do because we can use these 
very sophisticated climate models that have been developed by 
many groups over many years to simulate the kinds of extreme 
events and the kinds of changes in the physical climate system 
that would occur under both of those scenarios. They're very 
useful for helping us visualize what the world would look like 
under those two different kinds of conditions, and by doing 
that, we can see we really don't want a world with a 2-degree 
warming, and we certainly don't want to go past that, so it's a 
very useful exercise to go through visualizing these endpoints.
    Dr. Majkut. Yes, I would echo my colleagues that the way I 
think about climate risk as we progress through these various 
temperature levels is the planet doesn't really care about it 
being
1.5 +C or 2 +C, but the risks accumulate as we go higher and 
higher up through warming levels.
    The thing that jumped out to me as I was preparing for the 
hearing was the effect on coral reefs, funny enough. At 1.5 +C 
scientists are projecting that up to 90 percent of coral reefs 
globally will be substantially diminished by warming events, 
and at 2 +C that number goes to over 99 percent, which would be 
utterly devastating. So when we think about these global 
targets, we could really interpret it--interpret those low-
temperature targets as being hedges, right, looking to avoid 
catastrophic impacts on particular systems.
    Chairwoman Johnson. Dr. Ebi?
    Dr. Ebi. Another critical conclusion of the Special Report 
on Global Warming of 1.5 is that it is possible to stay below 
1.5 +C, and we can do that with current technologies. We have 
to increase our level of ambition. We have to be more 
proactive, but it's not impossible. So there is both the 
message that it's critical that we do so and that it's possible 
to make that commitment to stay below 1.5.
    And as the other speakers mentioned, as we increase from 
today, which is 1 +C above preindustrial to 1.5 to 2 degrees, 
that each unit of warming is associated with adverse 
consequences for our health, our livelihoods, our ecosystems, 
and for our economies.
    Chairwoman Johnson. Thank you very much. Before we proceed, 
I think we might have Dr. Mahowald ready for testimony. You may 
proceed.

             TESTIMONY OF DR. NATALIE M. MAHOWALD,

         IRVING PORTER CHURCH PROFESSOR OF ENGINEERING,

             FACULTY DIRECTOR FOR THE ENVIRONMENT,

           ATKINSON CENTER FOR A SUSTAINABLE FUTURE,

                       CORNELL UNIVERSITY

    Dr. Mahowald. Chairwoman Johnson, Ranking Member Lucas, and 
distinguished Members of the Committee, thank you for the 
opportunity to testify at today's hearing on the state of 
climate science and why it matters. I'd also like to thank the 
technical staff in the House and here at Cornell for making 
this happen.
    My name is Natalie Mahowald. I'm a Professor of Atmospheric 
Sciences at Cornell University with over 20 years' research 
expertise in climate science. I'm here today because--to 
explain why climate science matters and to put simply, it 
matters because the health and well-being of Americans matter, 
the U.S. economy matters, national security matters, and 
ensuring that the next generation of citizens can enjoy a 
better lifestyle than we do matters.
    Over the past year, we've witnessed record-breaking storms, 
precipitation, heat waves, fires, and flooding, all of which 
show the power of weather and the potential for changes in 
climate to harm human lives and livelihoods. At the same time, 
we're witnessing a global revolution in the development of 
innovative new technologies that hold the promise of delivering 
a low-carbon-emitting future. China and Europe in particular 
are investing heavily in these new technologies. The United 
States can take a leadership role in business, science, and 
technology to bring both clean energy and new jobs to thousands 
of Americans.
    These topics--climate change, its impacts, and the 
technologies to mitigate and adapt its effects--were the 
subject of the IPCC's special report on limiting warming to 1.5 
+C, on which I was a lead author. This report comes at a 
critical time when we are rejecting the old-fashioned view that 
either we protect the environment or we promote business. The 
goal of the report is to identify solutions to reach low-
climate targets while promoting economic growth and eradicating 
poverty.
    Scientific evidence is clear that human activities have 
caused warming of 1.0 +C since the late 1800s. If we keep 
warming at the same rate, we will pass 1.5 +C around 2040. Past 
emissions alone, however, are unlikely to cause 1.5 degrees 
warming. In other words, if we can cut emissions quickly 
enough, we can arrest the Earth's warming trends, keep 
temperatures below 1.5 degrees. This would require extremely 
ambitious emission cuts, 45 percent reduction in global 
emissions by 2030, which is much more ambitious than agreed to 
by the Paris Agreement and the voluntary reduction. In fact, 
the voluntary reductions agreed to through the Paris Agreement 
are likely to result in a warming of perhaps 3 +C. While this 
falls short of the stated goals of the Paris Agreement where 
governments agreed to keep warming below 2 degrees, it is much 
lower than the business-as-usual scenarios of up to a 5-degree 
increase in warming by 2100.
    The climate impacts will be lower at lower temperatures. 
Adaptation to climate change is easier at lower temperatures, 
but it's still going to be required. Whatever temperature 
target policymakers set as a goal, the 1.5 report provides a 
menu of policy options from which they can choose. This report 
also suggests an array of technologies and techniques across 
many sectors that may be deployed to strengthen the response to 
climate change. Combined, these policies, technologies, and 
techniques can help reduce climate change impacts either 
through mitigation or adaptation and are appropriate for any 
climate target. For example, reducing subsidies for fossil 
fuels or removing regulatory barriers for new energy-producing 
technology and promoting a stable business environment to low-
carbon technologies and techniques can create jobs, save money, 
improve health, and mitigate climate change.
    Promoting policies at the local, State, and Federal levels 
that move existing financing into new areas of research 
development and deployment for the energy industry, 
transportation, agriculture, and building sectors can create 
new business opportunities and technologies while mitigating 
for climate.
    Finally, an important new area of research will be carbon 
dioxide removal and utilization technology. The world is very 
different today than it was 50 years ago in terms of how we 
live, how we interact with each other, virtually and in person, 
and globally. The world in 50 years will again be different, 
and the challenge of climate change will be one of the key ways 
that define our future in terms of mitigation and adaptation to 
climate change. Keeping America in a business and technological 
leadership role requires thoughtful investment in research 
development and deployment and innovative technologies and 
techniques that our international competitors are already 
investing in and will result in a more prosperous, healthier, 
safer America and world.
    Thank you for the opportunity to testify. I look forward to 
your questions.
    [The prepared statement of Dr. Mahowald follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
     
       
    Chairwoman Johnson. Thank you very much.
    Now, the Chair recognizes Mr. Lucas.
    Mr. Lucas. Thank you, Chairwoman. I appreciate that.
    As I said in my opening statement, I represent a rural 
district where weather trends and predictions are extremely 
important to the agricultural community. Dr. Majkut, what are 
some of the things that we're doing well, and what are some of 
the things we could do better to increase preparedness for 
weather events and other effects associated with climate 
change?
    Dr. Majkut. Thank you for the question. I actually think 
we're doing fairly well. You look at the National Climate 
Assessment, and it shows a real effort on the part of the 
scientific community to start understanding what the medium- 
and long-term effects of climate change are going to be for 
communities like your own. And just one of the things--and that 
activity should definitely continue.
    One of the things we might think about doing better in the 
Science Committee and the Science Committee generally can think 
about doing is getting decisionmakers information that's 
relevant on the timescales over which they make decisions, 
right? So you mentioned you represent a farming community and 
you're a farmer yourself. You understand that what you think 
about the weather is a question for the next few days and the 
stuff you're going to do over the next few days. It's not 
necessarily clear that a 30-year projection is a helpful thing 
for what you're deciding to do this year or next year. But if 
you're designing a water system or a stormwater system or 
something like that, something you want to have around for a 
long time, then you really do want to have information around 
what the next 30 or 50 or 100 years are possibly going to look 
like.
    So where I think the scientific community can fairly say is 
learning how to do that, how to transfer that information and 
how to make the--kind of that whole range of timeframes from 
decade to decades to centuries available to people who need to 
think in that regard.
    Mr. Lucas. My fear from this increased demand for immediate 
action is pushed down from the top, perhaps unrealistic 
proposals that aren't practical. The last thing we want to do 
is dramatically raise energy prices for America. Dr. Majkut, 
with the growing demand for fossil fuels worldwide, what can we 
do to ensure that we are leading the way with low-carbon energy 
solutions?
    Dr. Majkut. Well, in particular, I think the Committee 
should continue to focus on and continue to be supportive of 
advanced research efforts for the things we think we're going 
to need in the future, and that means reliable, affordable low-
carbon energy. And in particular low carbon is the key thing 
that the climate is worried about, so it doesn't particularly 
matter whether that's energy that's going to come from a 
windmill or a fancy kind of battery or is going to come from 
fossil fuels with carbon capture and storage, or advanced 
nuclear. Instead, the target should be having a broad array of 
energy sources that can be used here and abroad at affordable 
levels and putting in place a research enterprise that is 
pursuing them with real vigor.
    Mr. Lucas. We make lots of investment in research in the 
Federal Government, and that's an important thing. How does the 
private sector advance what the government has started?
    Dr. Majkut. Well, the private sector is going to be the 
thing that actually scales those early run projects that 
received justifiable governmental support into use, right? 
That's the thing that's going to matter in sub-Saharan Africa, 
is going to matter in Southeast Asia, is going to matter in 
Oklahoma, how do those things compete in the marketplace. And 
so making sure that those innovations diffuse out is a matter 
of transitional policies and market design.
    Mr. Lucas. From the back door of my house on the farm in 
western Oklahoma I can see windmills, electric windmills from 
one horizon to the other. Dr. Majkut, you have referred to the 
goals set by the Intergovernmental Panel on Climate Change as 
ambitious. Is there a scenario in which those ambitious goals 
can be reached by transitioning to 100 percent renewable? By 
the way, those windmills don't always turn. They turn most of 
the time. We're a great source, but not all the time. Is there 
a scenario of how we could get to 100 percent renewable?
    Dr. Majkut. You could probably write one out on paper where 
it's physically possible, but I don't know that that's a 
necessary thing to do. And in particular if, like me and a lot 
of my colleagues and a lot of folks out in the--and your 
constituents are concerned about climate and you want to reduce 
greenhouse gas emissions, having a broad portfolio of options 
seems like the best choice, and there is a raft of literature 
showing you that if you want a reliable, low-cost energy system 
that has a lot less carbon emissions than we have today, you 
want a wide variety of technologies available.
    Mr. Lucas. Thank you, Doc. I yield back the balance of my 
time, Madam Chairman.
    Chairwoman Johnson. Thank you very much, Mr. Lucas. Ms. 
Stevens?
    Ms. Stevens. Thank you all so much for bringing your 
expertise and time to today's hearing. We're privileged to be 
able to engage with you.
    Certainly on this topic we have two choices. We can either 
embrace the need for climate change action and the embracing of 
climate science through fear or we can embrace it through 
opportunity. And I am so grateful that Dr. Mahowald was able to 
bring her testimony to us through video. And my questions are 
for you if we're able to ask questions of her. Are we able to 
do that? OK. Fabulous. So how are we as a country measuring up 
globally in terms of the actions that we are taking around 
Federal investments to develop innovative technologies and 
solutions to address the impacts of climate change?
    Dr. Mahowald. Thank you very much for the question. You're 
hearing me? Good.
    Ms. Stevens. Yes.
    Dr. Mahowald. The United States is starting to get the 
momentum to deal with climate change mitigation and adaptation. 
Much of the adaptation efforts of course have started at the 
local level, but they need to be moving across local, State, 
and Federal levels. We need to be dealing more with the 
adaptation efforts for climate change, as well as mitigation 
across the board. At this point the Federal efforts have not 
been consistent with what needs to happen for the ambitious 
targets for climate change. And some of the States have been 
reacting much more ambitiously than others, and there's several 
studies suggesting that Federal-level coordination of the 
States' efforts is much more efficient for the whole system in 
terms of transitioning to lower-carbon mitigation targets. 
Thank you.
    Ms. Stevens. Thank you. Well, I happen to represent 
suburban metro Detroit, the home of the Nation's automotive 
sector, and our automotive industry is in the race for the 
future, particularly around energy efficiency. And they see 
where China and Europe is moving, and they're sort of waiting 
on the United States. And so I was wondering if you could shed 
a little bit more light in terms of any projections that you 
might have that our country could capture in terms of return on 
investment. Should we be making the right strategic investments 
to lay the foundation for our industrial sector to be making 
the investments in carbon neutrality?
    Dr. Mahowald. Well, the transportation sector is an 
important sector, and of course Detroit is the home of that in 
the United States. Our competitors are investing heavily in 
low-carbon options. China is trying to get rid of internal 
combustion engines. India also has efforts in this area. The 
United States has the technological and the business innovation 
advantage. If we can use this, we can maintain our advantage in 
the automobile industry and other industries as well. But more 
coordination across the--at the Federal level, across the 
Federal, State, and local levels will really help in this 
effort. Thank you.
    Ms. Stevens. Thank you. I think it's fair to say that 
there's the ``if not but for'' role the government can play. 
Certainly industry is making their investments, but they're 
waiting on the Federal Government to lay the foundation, set 
the table, as we have in many ways where we created the 
highways and we plowed fields, but we need to set the table.
    And I want to get Dr. Kopp in just quickly with my 
remaining time available because you also mentioned this in 
your testimony saying that climate change is not just an 
environmental challenge, it's an economic challenge. It's an 
infrastructure challenge, a public health challenge, and a 
national security challenge. And while we have your great 
expertise in the room, I was wondering if you could maybe give 
us a few points around how the United States can continue to be 
a leader in addressing the impacts of climate change while also 
maintaining our global economic power.
    Dr. Kopp. Well, I want to come back to the thing I said at 
the very end of my remarks, which is that we need to make 
climate change a routine and integrated part of decisionmaking, 
public and private sector, Federal, State, and local, right? We 
make lots of decisions, particularly when we think about, say, 
infrastructure investments or particularly when we think about 
national security that play out over decades. And any time 
we're thinking about changes over decades, we're thinking about 
a world where the climate is changing in ways that we can 
project. And so we have to move beyond using the past as a 
guide to what we do and, when we're building a new rail tunnel 
under the Hudson, say, or we're building new water 
infrastructure, right, those need to be planned with all the 
range of possible futures that we might project in mind.
    Ms. Stevens. Yes, thank you. I yield back the remainder of 
my time.
    Chairwoman Johnson. Thank you very much. Mr. Brooks?
    Mr. Brooks. Thank you, Madam Chairman.
    Dr. Kopp, I'm looking at your written testimony as opposed 
to your oral testimony. On page three you state, quote, 
``Climate change is real, it is here now, and humans are 
responsible for it,'' end quote. Is that an accurate statement 
of your quote?
    Dr. Kopp. Yes, it is.
    Mr. Brooks. And on page five of your written testimony you 
state, quote, ``Global average sea level has risen by about 8 
inches since 1900,'' end quote, citing the Climate Science 
Special Report, Earth National Climate Assessment. Is that an 
accurate reading of that quote?
    Dr. Kopp. Yes, it is.
    Mr. Brooks. Are you familiar with the Earth's last glacial 
maximum roughly 21,000 years ago?
    Dr. Kopp. Yes, I am.
    Mr. Brooks. And is it fair to say that sea levels during 
the last glacial maximum were roughly 400 feet lower than they 
are today?
    Dr. Kopp. Yes, it is.
    Mr. Brooks. And would it also be fair to say, then, the sea 
levels over the last 21,000 years, 400 divided by 21,000 or 210 
centuries, sea levels have risen on average over that 21,000-
year period of time at roughly 2 feet per century?
    Dr. Kopp. Well, it was concentrated in the first half of 
that time, but yes.
    Mr. Brooks. From the 21,000- to the 7,000-year-ago period 
is the concentration, then it still increased--sea levels did--
but at a much lower rate during the last 7,000 years?
    Dr. Kopp. When they stopped rising is a scientific 
uncertainty, but certainly that by 7,000 years ago the giant 
ice sheet that was sitting on North America was gone, and so 
the contribution to sea level that came from that ice sheet 
ended.
    Mr. Brooks. So apparently, somewhere between 21,000 and 
7,000 years ago we had a very significant rise in sea levels, 
much more than the 2-feet-per-century average of the overall 
21,000-year period. Did humans cause that?
    Dr. Kopp. No, they did not.
    Mr. Brooks. They did not. So there are other causes to sea-
level rises other than humans, and at least in this instance 
over the last 21,000 years we're looking at an average sea-
level rise of 2 feet per century on average, 210 centuries, a 
little over 400 feet total. What was the cause of that?
    Dr. Kopp. Well, if you go back 21,000 years ago, my home 
State was sitting in its northern edge is under about a mile of 
ice, and that ice sheet, which we call the Lorne Tide, had a 
whole lot of water locked up in it. And so as that ice melted, 
sea level rose. We're now in a very different world where 
there's--the ice on the planet is largely in--almost 
exclusively in Antarctica and Greenland, and so what we're 
concerned about now----
    Mr. Brooks. OK. I'm not asking what we're concerned about 
now. I'm asking what caused the 400 feet in sea-level rise over 
the last 21,000 years? Would it be fair to say that it was 
global warming?
    Dr. Kopp. Yes, it would be.
    Mr. Brooks. And what is it that caused that global warming 
that began roughly 18 to 21,000 years ago?
    Dr. Kopp. So that--we were in an Ice Age roughly 18,000 
years ago, and the differences between the Ice Ages and the 
periods like we're in now, which are called interglacials 
because we're not in a glacial period, are paced by changes in 
Earth's orbit, amplified by changes in carbon dioxide.
    Mr. Brooks. OK. So there have been fluctuations in orbit, 
perhaps changes in carbon dioxide, and perhaps also some change 
in the actual tilt?
    Dr. Kopp. Yes, well, when I talk about changes in orbit on 
that frequency you're talking about where Earth is pointing, 
what we call a precession.
    Mr. Brooks. OK. And during the last glacial maximum, is it 
fair to say that almost all of Canada was uninhabitable, along 
with New England, New York, everything north of the Ohio River 
was in effect uninhabitable?
    Dr. Kopp. Certainly on the east side of the country, yes.
    Mr. Brooks. And would it also be fair to say that certainly 
at least in that instance, global warming was a desirable thing 
if you're a Canadian?
    Dr. Kopp. Well, there weren't many Canadians, but yes.
    Mr. Brooks. Well, there weren't any back then.
    Dr. Kopp. Over in the West there were, but yes.
    Mr. Brooks. OK. Now, let's talk about the remedy for a 
second. You may recall that in 2008 Dr. Steven Chu, who later 
became President Obama's Secretary of Energy, stated that, to 
combat climate change, quote, ``Somehow, we have to figure out 
how to boost the price of gasoline to the levels in Europe,'' 
end quote, which was about $8.70 per gallon. Do you agree with 
Steven Chu that that is a remedy that the United States should 
implement?
    Dr. Kopp. Well, there's lots of policy solutions. My job 
is----
    Mr. Brooks. I'm just asking about this one. Yes or no?
    Dr. Kopp. We are dumping CO<INF>2</INF> into the 
atmosphere. One way of dealing with the problem would be to put 
a price on carbon that reflected the cost of that carbon 
dioxide is imposing on the world.
    Mr. Brooks. Is that a yes or a no?
    Dr. Kopp. I'm going to give you the scientific answer and 
say it depends. It's one of the solutions that would work.
    Mr. Brooks. All right. Thank you, Madam Chairman. I 
appreciate the time.
    Mrs. Fletcher [presiding]. Thank you. I'll now recognize 
Mr. Tonko.
    Mr. Tonko. Thank you, Madam Chairman. And I thank 
Chairwoman Johnson for holding what I think is a very important 
hearing today and for our witnesses for joining us.
    I am beyond excited that, as a Committee, we are committing 
to seriously examining and addressing the urgent threat of 
climate change. I'm glad that this majority is focused on 
climate change and that we have stepped up to face the task at 
hand. And in particular, as a Member of the Science Committee, 
I am proud that after so many years of inaction, we are moving 
forward and giving this critical issue the time and focus it 
deserves and requires. Inaction is expensive.
    As we address climate change, our planning must be science-
based and evidence-based. The overwhelming majority of the 
scientific community knows that climate change is happening and 
that we are already feeling the impacts. The scientific 
evidence on climate change clearly tells us that we need to 
take action. Taking action means there will be challenges but 
also opportunities. We have a real opportunity to transform our 
economy to one that is cleaner, safer, and more just. We have 
the chance to advance clean-energy technologies, design the 
infrastructure of the future that will help communities endure 
and rethink every industry we have ever known. Investing in 
solutions and resilience today will help manage and limit those 
risks and serve as a foundation for job creation, healthier 
communities, and economic opportunity.
    It has been a decade since the House last seriously 
attempted to address climate change, and with that, Dr. 
Mahowald--and I will address you as a fellow upstate New 
Yorker. And I know what weather can mean at this time of year, 
so we're sorry that you're not with us, but thank you for 
joining us via technology. So, Doctor, how has our 
understanding of climate science and its impacts developed over 
the past 10 years?
    Dr. Mahowald. Thank you very much for the question and for 
your understanding of upstate New York's weather.
    Our understanding of climate science over the last 10 years 
has really benefited from the leaps in technology in terms of 
computer simulation, high--some of the big data analysis 
methods that we now have. And some of what that has allowed us 
to do is to really see the impacts of small changes in 
temperature on humans and ecosystems. And this was highlighted 
in the 1.5 report.
    Often what scientists do is we simply look at the big 
changes, but for this particular report we were asked to look 
at the difference between 1.5 and 2 degrees, and we focused on 
that. Almost 6,000 new studies were assessed in that report and 
really focused on what small changes in temperature can do in 
terms of impacts on humans. And that report highlights that 
small temperature changes, for example, can have a big impact. 
Thank you.
    Mr. Tonko. Thank you very much. And when many talk about 
climate change, they associate the tone of urgency. Do you 
think there's more or less urgency than we faced a decade ago?
    Dr. Mahowald. Thank you for the question. I think there's 
more urgency. Every day there's more people on this planet 
asking for more energy, and we're building more facilities. And 
right now, the technologies that people use, just by default, 
are technologies that emit a lot of carbon dioxide. The faster 
we can start using research, developing and deploying 
technologies that don't emit as much CO<INF>2</INF>, this can 
snowball into making it more and more economically feasible and 
politically feasible. All the infrastructure will be there to 
have lower-carbon technologies deployed. So the urgency is 
twofold. It's both because we're accumulating this CO<INF>2</INF> 
in the atmosphere, and in addition, we're accumulating 
infrastructure and technology that emits a lot of 
CO<INF>2</INF>. So there's a lot of urgency on the technology 
side, and then of course we're seeing more and more impacts on 
people. Thank you.
    Mr. Tonko. Thank you very much for your input and that of 
Cornell routinely on these issues.
    Dr. Ebi, according to both the IPCC's special report and 
the NCA 4, climate change takes a toll on mental health. Those 
who survive extreme weather events and see their communities 
damaged can suffer from depression, anxiety, suicidal thoughts, 
and posttraumatic stress disorder (PTSD). A report notes that 
droughts have led to an increase in alcohol and drug use and 
higher temperatures are associated with more aggressive 
behaviors. How does climate change affect mental health, and 
what steps can the medical community take to ease the 
psychological burden?
    Dr. Ebi. Thank you. That's an excellent summary of how 
climate change can affect mental health through exposure to 
extreme events. There needs to be increased awareness about 
this across the health professions so that there are greater 
actions when we have these extreme events, that we do have 
mental healthcare professionals available to help people after 
an event. And we need a lot greater preparedness for these 
events. If the United States was as prepared as it should be, 
we wouldn't have seen the impacts we've seen over the last 
couple of years. So investing in adaptation, investing in 
making sure we understand what future risks could look like, 
we're better able then to handle all of the challenges, 
including the mental health ones. Thank you.
    Mr. Tonko. Thank you very much.
    With that, I yield back, Madam Chair.
    Mrs. Fletcher. Thank you. I will now recognize Mr. Weber 
for 5 minutes.
    Mr. Weber. I thank the gentlelady from Texas. Dr. Majkut, 
you mentioned that there is, quote, ``No better incentive for 
us than the private sector, but if you really want energy 
innovation, you need to show the innovators there's a market 
waiting for them,'' end quote. Dr. Majkut, I ran an air-
conditioning company for 35 years, built it from the ground up, 
and I know that when the weather got hot, my business on the 
Gulf Coast of Texas was in great demand. I will tell you this: 
The more the Department of Energy raised energy ratings and 
required that manufacturers build higher-efficient equipment, 
the more that those units cost. And the more they cost--air 
conditioning went up--the more the demand for that high-
efficient equipment went down because people were already hard-
pressed in living their lives and they couldn't afford higher 
prices. And on the Gulf Coast of Texas you don't want to be 
without air conditioning. Now, I don't know how many of you all 
live in the southern part of the country, but it's extremely 
important to us.
    Applying this same developing concept to clean-energy 
technologies, Dr. Majkut, how do we show innovators that there 
is a demand and a market waiting for them?
    Dr. Majkut. Well, it depends on the area in which you're 
working, right?
    Mr. Weber. Did I mention I live on the Gulf Coast of Texas?
    Dr. Majkut. Sure did, sir.
    Mr. Weber. Yes.
    Dr. Majkut. There's a lot of things government can do to 
create markets for innovation. A lot of them fall into other 
committees' jurisdiction, right? You can use tax policy, you 
could use incentive policies. I can't speak to the air-
conditioning example largely because it's not my area of 
expertise, but I do know that we can look at cost-cutting 
measures, we can look at technological innovation to make more 
efficient air conditioners as an example, less costly at the 
front. We can look at financing mechanisms that amortize a more 
efficient air conditioner costs less to use over time, so how 
do you find ways to help people make an upfront capital 
investment, et cetera.
    Mr. Weber. OK. I'm going to move along a little bit. That's 
a great thought. As Ranking Member Lucas said, the push down 
from the top was the last thing we want to do because it would 
dramatically raise energy prices. And then there was some 
discussion between the witnesses with one of the Members about 
raising those energy prices. Do we raise those energy prices to 
whatever it takes? I know, Dr. Kopp, you didn't have an exact 
price, but do we just commit to raising them to whatever it 
takes? Dr. Kopp?
    Dr. Kopp. I would say a number of the policy solutions 
you're talking about would raise the per-unit energy price, but 
the idea behind trying to get the markets to work is that you 
wouldn't necessarily be raising the amount that people are 
spending on energy because, to take the air-conditioning 
example that Dr. Majkut was talking about, right, it costs a 
little bit more up front just like solar costs a little bit 
more than a coal-powered plant upfront----
    Mr. Weber. But the----
    Dr. Kopp. But you spend less over time----
    Mr. Weber. OK. I----
    Dr. Kopp [continuing]. And so not--a lot of these policies 
wouldn't necessarily----
    Mr. Weber. So----
    Dr. Kopp [continuing]. Increase----
    Mr. Weber. Let me move down. So, Dr. Francis, whatever 
price it takes to get to that point, is that kind of the 
philosophy here? Does it matter if we raise energy prices?
    Dr. Francis. I don't think it's fair to say that whatever 
cost it takes, but I think we need to have a strategic plan 
for----
    Mr. Weber. Would you put a percentage on that? Raise them 
10 percent, 20 percent, 15 percent?
    Dr. Francis. Energy policy is not my area of expertise----
    Mr. Weber. OK.
    Dr. Francis [continuing]. And economics is not in my field 
of expertise----
    Mr. Weber. Fair enough.
    Dr. Francis [continuing]. But I feel that putting a higher 
price on energy----
    Mr. Weber. Let me jump----
    Dr. Francis [continuing]. Would do what we want it to do.
    Mr. Weber. Let me jump over to Dr. Ebi here. Any price, 10 
percent more, 15 percent more?
    Dr. Ebi. The question is partially what's the price but 
also how do you manage that. And is some of that price turned 
back----
    Mr. Weber. Well, that's a growing technology, and we want 
America to be in the lead, American business and enterprise, 
right, to be in the lead for this, but I think there is a price 
where you make it so untenable for Americans that all of a 
sudden they kind of get turned off to the idea, and we don't 
want to do that. That's my point.
    Let me move on. Mr. Lucas said that in his State, he's got 
lots of windmills. And I think you said you could see them from 
one horizon to the next. Have you ever noticed that on the 
hottest day of the year the windmills aren't turning, and 
that's why it's the hottest day of the year? I mean, it's 
unbelievable that--we can't rely on those.
    When it comes to national security--and you mentioned this, 
Dr. Kopp, actually in your comments--we're going to need a 
backup that our country can depend on, and it's going to have 
to be fossil fuel. I can tell you about requirements for 
energy. I'm working on nuclear energy capability. It needs to 
be at the table. It needs to be a major part of our portfolio. 
So we've got to take these things into account. And I 
appreciate you all being here today. And I'm out of time, Ms. 
Fletcher.
    Mrs. Fletcher. Thank you. I'll now recognize Mr. Foster for 
5 minutes.
    Mr. Foster. Thank you, Madam Chair. And first, I'd like to 
thank Chairwoman Johnson for convening this important hearing. 
The climate challenges facing humanity are large, and 
unfortunately, serious debate on the best paths forward has 
often been stifled by the politization of this issue, at least 
in this Committee.
    For years, too often we found ourselves wasting time 
arguing with non-technical witnesses about, for example, 
whether or not it's a matter of scientific debate, whether or 
not it would be a good thing if the Greenland ice sheet melted. 
But--and so I was really thrilled to see some of the changes 
that appear to be occurring in this Committee.
    Over the last several years I have to say on a personal 
note I have grown truly tired of introducing myself as the only 
Ph.D. natural scientist in the U.S. Congress. And to that end, 
I am thrilled to welcome onto the Committee and into Congress 
Dr. Jim Baird as the second Ph.D. national--natural scientist 
in the U.S. Congress. And I would also like to congratulate my 
Republican colleagues on their wisdom in appointing him as the 
Ranking Member of the Research Subcommittee.
    More to that point, I'd also like to thank Ranking Member 
Lucas and my Republican colleagues for selecting Dr. Majkut as 
their witness for this hearing. He's someone with a Ph.D. in 
relevant science and someone with views who are--which are 
inside the scientific mainstream, and that's refreshing. He is 
also someone obviously who understands that the question here 
is not whether or not this problem is real but rather what is 
the most cost-effective way of solving it, and that is a 
refreshing change because on this Committee, we have to look 
deeply at the balance of research and policy spending to solve 
this problem.
    In terms of that, the best way forward, particularly the 
newer Members on the Committee will be faced with just a 
mountain of things that have been written on this, and what I 
consider the best synthesis that I've seen was actually 
presented by former Energy Secretary Moniz in his testimony to 
the Senate last week. In a report that he highlighted by the 
Energy Futures Initiative, which he's one of the leaders on, 
entitled, ``Advancing the Landscape of Clean Energy 
Innovation'' really to my mind touches the main points of what 
knobs we should be operating in our government both in terms of 
technological research, private-sector efforts, and public-
private partnerships to solve this problem.
    And so with that, I would at this point like to ask 
unanimous consent to enter into the record the report of the 
Energy Futures Initiative entitled, ``Advancing the Landscape 
of the Clean Energy Innovation.''
    Mrs. Fletcher. Without objection.
    Mr. Foster. And so now I actually have one technical 
question for the entire panel. It seems to me that one of the 
changes in the last several years in the thinking on climate, 
is the rising of the profile of methane as a significant 
greenhouse gas, that if you look at the impressive progress, 
apparent progress in the decarbonization of the United States, 
a big part of that is by converting coal to natural gas use. 
And it now appears true that a significant--a large single-
digit percentage of the methane that we burn actually gets 
vented, wasted, vented directly to the atmosphere without--
before combustion. And so if that is true, the fact that it's 
such a potent greenhouse gas really negates a lot of the 
progress in converting coal to natural gas. And apparently the 
technology to detect the thousands of small methane leaks is 
tough, and it's not going to be cheap. So I wonder if you had 
any thinking on what we do about the methane problem and where 
the research that could really make a difference there would 
be. We can just go down the line if you want.
    Dr. Kopp. Yes, I mean, I think we're sort of throwing money 
away and hurting the environment when you have natural gas 
leaks and there has been a lot of discussion about how much--
how large those leaks are. All the incentives are there to try 
to solve those problems, and if it's not happening, that might 
be a good area for this Committee to figure out how to push it 
along.
    Mr. Foster. Yes, I think one of the difficulties I've heard 
pronounced is that it's simply finding a very large number of 
small leaks is not cost-effective in terms of the savings in 
natural gas, and that's one of the things that makes it tough 
at least with current technology.
    Dr. Francis. So I would just like to bring up another issue 
related to methane, and that is the fact that the permafrost 
areas in the high Arctic are warming dramatically. We expect to 
see a lot more thawing happen. And when permafrost thaws, the 
biological material that's frozen in those soils can decompose 
then and become either methane or carbon dioxide. And we're 
seeing the warming happening much faster up there in general 
and in the Arctic overall. And the loss of sea ice, which is a 
clear symptom of global warming, is contributing to the 
acceleration of that thawing of the permafrost. So this is 
another issue that I think we need to take very seriously, 
especially in the methane discussion.
    Mr. Foster. Thank you. And it appears my----
    Mrs. Fletcher. Mr. Foster, your time has expired.
    I'd now like to recognize Mr. Babin.
    Mr. Babin. Thank you, Madam Chair. I appreciate it. Thank 
you all for being here as expert witnesses.
    And we heard a little history a while ago. I had to leave 
the room for a minute, but I did catch the end of it, very 
interesting because I love history. Are you familiar, Dr. Kopp, 
with the Norse settlements in Iceland and Greenland but--in and 
around the year 1000 and that there was farming and animal 
husbandry in Greenland for nearly 300 years, which lasted up 
until about 1300 and then we had what we call the Little Ice 
Age, which lasted up until about 1700, and then the Greenland 
colony disappeared. But it's archaeologically sound evidence 
that told us that it did last that long. What could have 
possibly caused the climate to change so much that we would 
have farming and animal husbandry in Greenland for a period of 
2-1/2, 3 centuries? Could you have blamed that on human 
emissions or can you give me an answer to that question?
    Dr. Kopp. So there are fluctuations that we see in 
circulation in the North Atlantic. There's something called the 
North Atlantic oscillation. That might have had a role to play 
there. The Little Ice Age, which was then triggered, may have 
had something to do with volcanic emissions. The details of 
that are still an area of research. A lot of that is more of a 
localized phenomenon in the North Atlantic. There's some global 
temperature change, but that global temperature cooling 
actually starts around 1000 just so you----
    Mr. Babin. What you're saying is we don't really know, but 
in the opinion of everybody sitting at the table up there, was 
it more advantageous to have a little warming going on around 
the globe or was it more advantageous to have a little cooling 
going around the globe? Because during the Little Ice Age we 
lost lots and lots of humans to various causes that are in 
response and as a direct result of dropping temperatures. How 
would you answer it?
    Dr. Kopp. Well, it's a----
    Mr. Babin. I would say that it would be more advantageous 
to have lived in a climate that was a little bit warmer.
    Dr. Kopp. Yes, so I would say that over that period we're 
talking about a very small change in global temperature, 
roughly .3 +F, so it's worth keeping that in context when we're 
talking about the
2 +F, so almost 10 times as much than we've seen over the last 
century.
    Mr. Babin. Anybody else want to answer that?
    Dr. Majkut. Yes, Mr. Babin, I think the way I think about 
it is not that there is an ideal temperature that we know for 
certain that human flourishing will be maximal. Science can't 
really tell us that in a meaningful way. What we do know is 
we've built our society around the temperatures that we've 
encountered over the last 200, 300 years. And as Dr. Kopp says, 
we're fixing to change those temperatures quite a bit. And that 
rapid transition is the cause for concern.
    Mr. Babin. But we do know that when Canada and the eastern 
part--upper part of the United States was uninhabitable during 
the Ice Age, that it certainly wouldn't have been conducive to 
economic development. I just feel like, you know, there's no 
question that our climate is changing, no question whatsoever, 
but to blame everything on human activity and expect the United 
States of America, the taxpayers in our country, to pick up the 
tab to pay carbon taxes and for carbon footprints and lower 
their quality of life and standard of living and increase the 
cost of living while our biggest polluters around the world 
absolutely go scot-free and continue. So it's hard for me to 
justify how we could be expected to pay that kind of a price.
    And I want to ask one more question, too. Do you support a 
transparent and full accounting of cost, benefits, and 
projected impacts to the global climate of individual climate 
policy proposals? I'm going to ask Dr. Ebi. Is it the way you 
pronounce your name? I'm sorry.
    Dr. Ebi. That's fine. It's a difficult name. But thank you 
for the question.
    Mr. Babin. OK.
    Dr. Ebi. We do need a full accounting, and that does happen 
under the United Nations' Framework Convention on Climate 
Change at least in terms of emissions. And we know the United 
States alone is responsible for 25 percent of all emissions. 
There are efforts to try and understand better how much the 
cost of those emissions are in terms of impacts on our health, 
impacts on our ecosystems, our livelihoods, on our economies. 
And there's a growing amount of work looking at what the 
benefits of action would be.
    Just from the health sector we know that the health 
benefits of many mitigation policies are of the same order of 
magnitude as the cost of mitigation, that if we get more people 
to ride their bicycles, to walk to work, to change their diets, 
to have less exposure to particulates, the avoided premature 
deaths, the avoided hospitalizations are a very large amount of 
money that would offset the cost of emission reductions. So we 
do need to look much more broadly at the cost and the benefits, 
taking into account who bears the cost and who reaps the 
benefits and how to make sure that this is done in a way that's 
as fair as possible.
    Mr. Babin. But if we are responsible for 25 percent of the 
emissions, as you say, then why should we pay nearly 100 
percent of the cost? Because it sounds like that's the 
direction that you folks would have us go. And I think my time 
is over and expired, so----
    Mrs. Fletcher. Yes, sir, I believe your time is expired.
    Mr. Babin. Thank you.
    Mrs. Fletcher. Now, I actually am going to recognize myself 
for 5 minutes for questions.
    And I represent the western side of Houston and the greater 
Houston area along the Texas Gulf Coast along with some of my 
colleagues on the panel. It is also the heart of the energy 
industry. And Dr. Francis mentioned hurricane Harvey in her 
remarks this morning. Harvey, as we all know, was one of the 
most devastating disasters in our history. It was also our 
third 500-year storm in a span of less than 3 years, so we are 
seeing increased frequency and intensity of weather events. We 
are also seeing the risks of sea-level rise and concern about 
storm surge in our community.
    And in our district, we understand that climate change is 
real, and we believe working together in a collaborative way is 
the best approach for us to tackle this challenge. That means 
collaboration between research institutions, industry, and 
governments at the Federal, State, and local levels. So we 
believe that everyone has to be a part of the solution and a 
part of addressing this challenge.
    And with that in mind, I have a few questions relating to 
these topics, first for Dr. Francis. Can you tell us briefly 
what the science tells us now about the intensity of the 
extreme weather events that we've experienced and how that 
might or will change in the future?
    Dr. Francis. Yes, thank you for the question. As I 
mentioned in my oral testimony, there are certain things that 
we know for sure are happening in the climate system. And 
Houston is probably in the crosshairs of a lot of those. You 
have seen, as you said, increased flooding. We know that heavy 
precipitation events are increasing dramatically. You've seen 
heat waves increasing. You've even seen drought increasing. And 
we also expect to see tropical storms intensifying more 
rapidly, and potentially we expect to see more of the very 
strongest tropical storms. A lot of those things are very 
clear, and what is a little less clear relates back to Harvey 
and some of the extreme events that you all have witnessed and 
experienced, and that is we're also seeing an increase in the 
persistence of weather regimes. So it could be dry, it could be 
hot, it could be cold, it could be wet, but we're seeing an 
increased persistence, and we believe that that is also related 
to climate change.
    Mrs. Fletcher. Thank you very much. And, more broadly for 
the panel, we do believe it's important to include everyone in 
working together on these solutions, so, in particular, do any 
of you have experience with or suggestions on how the energy 
industry can work together with your institutions and with 
those of us who are making policy to be part of the solution 
toward climate mitigation? And I should also add I believe that 
they already are, and certainly in my district most of the 
industries have acknowledged and are working to combat climate 
change, but any specific ideas you have of policies or programs 
you think would be helpful for this Committee to know?
    Dr. Kopp. Well, so there's sort of a style of doing science 
that I think very much gets at this, and that's science that is 
sort of stakeholder-engaging and the jargon is 
transdisciplinary, but basically the idea is start with a 
problem, right? The problem is the resilience of the energy 
system off of Houston. And then you're going to get together 
the different disciplines that you need to address it, you're 
going to get together stakeholders, and you're going to do the 
research together in a partnership. And that's a very different 
style of doing research than what's traditionally happened in 
universities. And I think we need to be rethinking a little bit 
of that part of the climate science enterprise to sort of make 
this more of a problem-focused thing.
    Mrs. Fletcher. Thank you. Dr. Ebi?
    Dr. Ebi. Thank you. It's a very good question, and I want 
to echo that working with stakeholders is critically important 
in this process. And to step back more broadly and say that 
companies want to have healthy workers and healthy communities. 
They don't want to see their workers flooded, they don't want 
to see the impacts on their workers and on their families. And 
so there are ways that one can work together to try and ensure 
the resilience of the community while the companies work to 
ensure their own resilience to make sure that, as these extreme 
events occur, they are not affected, that their facilities are 
not affected, so facilitating those partnerships at the 
Federal, State, and local levels is critically important.
    Mrs. Fletcher. Thank you very much. My time has expired, so 
I will yield back the remainder and now recognize Mr. Baird for 
5 minutes.
    Mr. Baird. Thank you, Madam Chair. And this is my first 
congressional Committee hearing, so I hope you'll excuse me if 
I make any procedural errors. And I'd prefer you not express 
those to me. I'll just take that. I'm honored to be here in 
that capacity and to be able to have the discussion that we're 
having today about climate change. I do appreciate my colleague 
Dr. Foster for those kind words.
    But as a farmer and an animal scientist, I know the 
importance of leaving the land healthier than how we found it 
for our next generation. I've got grandchildren, but I think 
it's important to those children and grandchildren. And so the 
health of the land has always been a concern for agriculture 
people, and that is important to our ability to feed ourselves.
    But in that vein, I also recognize that the natural 
evolution process over time, the tremendous ability of 
mammalian tissue or mammals and plant tissue to adapt to their 
environment, I don't see much discussion about that in some of 
the presentations. But I do find your presentations extremely 
interesting and very insightful.
    I would like to just point out a couple things. Dr. Ebi, 
not picking on you in any particular reason, but, for example, 
we mention 729 children died from heatstroke from 1990 to 2014, 
so I guess my question there is, is that because the 
automobiles were better, or the children are less exposed to 
their environment than we have in previous centuries and so on? 
So I think we need to take those kind of factors in when we 
make those predictions about the impact of the climate on some 
of the issues we're concerned about.
    For example, the elderly, are we older as a generation, so 
we're becoming more susceptible as we age and so compared to 50 
years ago we're living a lot longer. And so those are just 
things that if you want to respond to that, you're welcome to. 
It was really more of a comment than anything, but I'll give 
you that option.
    Dr. Ebi. Well, thank you. And thank you for those comments, 
and I do have a couple of short responses. On the evolution, 
the climate now is changing faster than it's been in 10,000 
years, and so it is a challenge for many of our plants and 
other species to try and evolve fast enough in the face of this 
rapid rate of change.
    In terms of the children dying in cars, the data were only 
collected over a certain period, so we don't have data from 
before then. But the point is as temperatures are going up and 
we're seeing more heat waves, we're seeing higher temperatures 
in summer, people don't realize how quickly cars heat up. And 
so it's terribly unfortunate how many infants are dying in cars 
because people don't realize, as they say I'm only going to be 
gone for a minute, that that minute may be too much for an 
infant in the higher temperatures we're experiencing now.
    Mr. Baird. I really understand that and can appreciate 
that, and I think that's a tremendous mistake that parents 
make. But my question comes back to, is that because the cars 
are tighter, the windshields are better, the glass heats up 
more, and so on? No excuse for leaving those children, and I 
don't want to comment about that. That's OK. We're OK there.
    But I do have some questions for Dr. Majkut. In the 
developing field of technology, the United States, I think we 
ought to be a leader in that because we have the ability and 
the talent to do it. We have the research capability. So my 
question to you is, are we behind other countries in our 
developing a cleaner environment, cleaner energy sources?
    Dr. Majkut. It's a tough question to answer. I think the 
answer probably varies on exactly where you answer. I think in 
bulk, no. The U.S. research enterprise is really strong. We 
provide a lot of resources to that enterprise. And if you look 
at environmental performance not just on climate but on other 
issues over the last decades, we're doing pretty well.
    Mr. Baird. So would it be fair to say that our country 
makes a lot more investments in cleaner energy sources than 
another country around the world in terms of reducing our 
pollution even though we use a lot of the fossil fuels?
    Dr. Majkut. I don't know. I don't know the relative 
spending, sorry.
    Mr. Baird. OK. Agriculture is extremely important, as I 
expressed. It's extremely important to my district, and so we 
have Purdue University in the area, and Dr. Dukes has also 
provided some assessment of what the climate change has on 
agriculture, but it can impact growing season, plant growth, 
animals, and some of the things that's already been discussed. 
So what do you think we ought to be doing right now to correct 
these areas? What are some of the things you think you might be 
able to do relatively rapidly?
    Dr. Majkut. On farming specifically?
    Mrs. Fletcher. The gentleman's time has expired.
    Mr. Baird. All these procedures, I tell you. Thank you very 
much.
    Mrs. Fletcher. I now recognize Mr. Bera--Dr. Bera.
    Mr. Bera. Thank you, Chairwoman Fletcher. You look good in 
that chair, by the way.
    First off, it is glad that we're kicking off this Congress 
and this Committee with a hearing on climate science, on 
climate change and really taking a look at what we can do to 
try to mitigate this. And you will hear aspirational goals. You 
can call them whatever you want, if it's a Green New Deal or 
something, but aspirational goals are not things that we should 
shy away from as the United States.
    If we look at our own legacy and our own history going back 
to the--throughout our history but, recent history in the 1960s 
when President Kennedy challenged us to go to the moon, we had 
no idea how we were going to do it. It was an aspirational 
goal, but we put all of our intellect, industry into that, and 
we accomplished it. And we accomplished it faster than the 
President challenged us, so let's not be afraid of setting 
these aspirational goals. And we know from going to the moon 
and the whole Apollo program, it was economically sound as well 
because we can think about all the industries and innovation 
and discovery that came from that.
    I'm proud to be a Californian. I'm a lifelong Californian. 
And in our State we did pass legislation recently that moves us 
to the goal of 100 percent clean energy by 2045. That is an 
aspirational goal. But we also know we're the fifth-largest 
economy in the world. It hasn't stifled our economy. In fact, 
there's over 500,000 clean and renewable energy jobs in 
California, and that's growing. So, again, we don't have to be 
afraid of setting those goals.
    Dr. Kopp, I think you mentioned getting to that goal of 
net-zero global greenhouse gas emissions. I think that's an 
aspirational goal, but let's set that goal out there and then 
let's work toward it and use our innovation and intellect to 
get there.
    I've got from a science perspective and a question--and 
I'll let all the witnesses comment on this--there's also the 
issue of the carbon that is already sequestered in our 
atmosphere. And from the scientific perspective, what are the 
things we're not talking about mitigating future emissions, but 
are there ideas out there for us to degrade the carbon that 
already is up there that is trapped?
    Dr. Kopp. I don't know if Dr. Mahowald wants to take first 
crack at that.
    Mr. Bera. Sure, whoever wants--go ahead.
    Dr. Mahowald. I'm happy to speak if I'm able.
    Mr. Bera. Yes, please.
    Dr. Mahowald. The removal of carbon dioxide from the 
atmosphere is--innovative new technologies are moving in this 
direction, and we do need more investment in this type of 
research development and deployment of these technologies. 
There are some sectors that are going to be very difficult to 
cut the CO<INF>2</INF> emissions from, and removing carbon 
dioxide from the atmosphere is a very good method of reducing 
climate risk at the same time as we are working to mitigate as 
well as adapt in other areas. So, for example, if you want to 
sequester more carbon in agricultural soil, this not only 
reduces the carbon dioxide in the atmosphere, it also makes the 
agricultural soil more resilient to climate change as an 
example. But there's two recent National Academies reports on 
how to look at carbon dioxide removal, and I think it's an area 
that the United States should invest more research and set up 
the business environment to allow companies to invest more in. 
Thank you.
    Mr. Bera. Great, thank you. Dr. Kopp?
    Dr. Kopp. Yes, just to add onto that, there's a wide range 
of approaches you can take from expanding forests, which is 
slow but we know works, to a variety of technological 
approaches. As I said in my opening remarks, they're sort of 
new and untested. I think one thing to keep in mind is that the 
amount of warming we have is roughly proportional to the--all 
the CO<INF>2</INF> we've emitted, so if we want to reverse 
warming by removing CO<INF>2</INF> from the atmosphere, we're 
going to have to talk about building infrastructure that's of a 
scale comparable to that that we're currently using to put 
CO<INF>2</INF> into the atmosphere, right? So the first use of 
these technologies is going to be, as Dr. Mahowald mentioned, 
for areas where it's hard to get the CO<INF>2</INF> out. But if 
we want to talk about reversing climate change, you're talking 
about a huge growth of this area using technologies that are 
still really to be developed.
    Mr. Bera. Right. Any last comments, please?
    Dr. Ebi. One last comment to go to what you said at the 
beginning, I'm at a very large State university, and students 
are so excited about the possibilities of working in this area. 
Students want to contribute to the solutions. They want the 
training so that they can be part of this transition that we're 
going to undergo.
    Mr. Bera. So it's a lot like those of us who were growing 
up in the 1960s during the space race. It's inspiring. And 
let's not be afraid of setting those aspirational goals.
    I'll yield back.
    Mrs. Fletcher. Thank you. And before we move on to our next 
questions, I would like to enter into the record without 
objection a consensus letter to Congress from 31 nonpartisan 
scientific societies that acknowledge and affirm human 
contributions to climate change and notes the severity of 
climate change impacts is increasing and is expected to 
increase substantially in the coming decades.
    And with that, I recognize Mr. Waltz for 5 minutes.
    Mr. Waltz. Thank you, Madam Chairman.
    So my district's in northeast Florida. I grew up on Florida 
beaches. The seas are rising. Anyone who's grown up there knows 
that the beach is smaller than when I was a child. I just don't 
see how that's disputable. But I do want America to lead this 
effort. We've led the world in coal, oil, and gas development. 
Now we need to do it with rapidly growing clean-energy markets. 
I think to succeed we need a very broad portfolio of--emphasis 
here--low-cost technologies to speed the transition to 
renewable cleaner energy. I think that includes nuclear 
undeniably.
    I would caution my colleagues, we have seen a lot of 
aspirational goals lately. I think we need to be very careful 
about crossing the line from aspirational to outlandish goals 
that could harm our economy and frankly give the edge to our 
global competitors in doing so and frankly take us backward in 
this effort.
    So I'm very concerned as a veteran as well about the 
national security implications of global warming. I have first-
hand seen and unfortunately could not count the amount of 
soldiers that have died carrying diesel fuel back and forth to 
outposts that we could have sustained through clean 
technologies. I've seen--not to mention our global supply 
chains and not to mention I've spent a lot of time in Africa, 
Lake Chad basin where we're dealing with the destabilizing 
effects in Nigeria, Niger, what have you.
    So my question for each of the panelists is what R&D--I 
mean, Dr.--did I say this right--Majkut?
    Dr. Majkut. Majkut.
    Mr. Waltz. Majkut, excuse me. You said we're doing pretty 
well in our investments, particularly relative to the rest of 
the world, and my question for each of you is, where are we 
not--across the menu of clean-energy technologies, where do we 
need to do more? And again, keeping this in the context of our 
broader economic base that I think we need to sustain all of 
these efforts. So where could we do more? Geothermal--and I'd 
ask you to choose. The answer can't be yes, all of the above.
    Dr. Majkut. Let me say first we could be doing more, right? 
Like the scale of the challenge and a lot of the concerns that 
your colleagues point out about increasing costs with present-
day technologies to reduce greenhouse gas emissions, those are 
real and valid concerns. And in particular, you can't expect 
these things to scale unless the prices at which they're 
trading are competitive. So on the whole, doing more is not 
necessarily a bad thing, and then doing more smartly is 
probably the thing that the Committee should really pay 
attention to.
    When I read these IPCC reports or the National Climate 
Assessment or these other documents, the places where it seems 
like the technology hasn't caught up with the need, carbon 
capture and storage is one, right? This allows us to use fossil 
fuels without--for power generation and take advantage of all 
of their desirable characteristics without emitting----
    Mr. Waltz. To make it more cost-effective or just to do it?
    Dr. Majkut. In large part simply to do it. There are very 
few facilities----
    Mr. Waltz. OK.
    Dr. Majkut [continuing]. At which this is happening.
    Mr. Waltz. But just in the interest of time, my 
understanding is the majority of our dams in the United States 
do not generate electricity. Nuclear accounts for about 1/5 of 
the United States' electrical generation right now. And then of 
course, we're seeing just a boom in natural gas and where we 
can go with it. Would you agree that those are all areas where 
we can make greater investments that would make a difference on 
this issue?
    Dr. Majkut. Yes.
    Mr. Waltz. Would any of the other panelists want to weigh 
in on either of those questions?
    Dr. Francis. Thank you. So I'm from Massachusetts, and in 
Massachusetts we've had incentives for solar energy for about a 
decade now, and many roofs have solar panels on them. To put a 
solar array on your roof now, the payback period is about 6 
years before you start basically making money on your 
investment. It saddens me to fly over your State frankly 
because I look down and I see almost no roofs with solar panels 
on them, and you're just missing a huge opportunity. And yes, 
it took some incentives to get the ball rolling down the hill, 
but now, the incentives in Massachusetts are disappearing and 
still people are putting solar on their roofs.
    Mr. Waltz. I would point out to that in Samsula, Florida, 
Florida Power & Light has a 1,200 solar facility, and it's 
estimated to provide electricity to 14,000 homes, 30 million 
solar panels by 2030, but I'm sure we could all collectively do 
more. Those are State incentives to be clear----
    Dr. Francis. That's--yes.
    Mr. Waltz [continuing]. At the State level or local level.
    Dr. Francis. Yes.
    Mr. Waltz. Thank you so much. I yield my time.
    Mrs. Fletcher. Thank you. I now recognize Ms. Bonamici for 
5 minutes.
    Ms. Bonamici. Thank you very much, Madam Chairwoman.
    I want to thank Chairwoman Johnson and Ranking Member Lucas 
for holding this hearing, and I also wanted to take just a 
moment to say congratulations to the environmental--Environment 
Subcommittee Chair Representative Fletcher and wish her a very 
happy birthday. Thank you.
    Mrs. Fletcher. Thank you.
    Ms. Bonamici. So thank you to the witnesses for being here 
today. The science is clear. I've been on this Committee the 
entire time I've been in Congress. We've had this conversation 
many times. This--consequences of inaction on climate change 
will be serious and swift. The findings of the recent report 
from the International Panel on Climate Change, the IPCC, and 
the Fourth National Climate Assessment are not just a wake-up 
call; they are an alarm. At the time when the world is facing 
record heat waves, droughts, more acidic oceans, rising sea 
levels, and a surge of--in extreme weather patterns, we must 
fight for comprehensive policies to protect the health of our 
oceans and our planet.
    I was concerned when the Trump Administration appeared to 
be burying the Fourth National Climate Assessment. They 
released it late on a--like late on a holiday weekend, so I 
shared findings from the assessment on Twitter every day for 6 
weeks to call attention to the assessment when the President 
dismissed the findings in a Washington Post interview last 
year. I worked with my colleague on this Committee, Mr. Beyer. 
We led 96 of our colleagues in urging the President to heed the 
dire warning of the assessment and work with us to protect the 
health of our planet.
    The assessment is the most comprehensive science-based 
evaluation of the consequences of climate change, the risks of 
inaction and potential adaptation strategies for the United 
States to date. We cannot and should not dismiss its findings.
    Dr. Ebi, according to the air quality chapter, volume 2, of 
the assessment, more than 100 million people in the United 
States live in communities where air pollution exceeds health-
based air quality standards. Climate change will increase the 
risk of unhealthy air quality. How are children, older adults, 
low-income individuals, communities of color, and those 
experiencing discrimination disproportionately affected by 
climate change, and what could we do to mitigate the health 
consequences of climate change for these vulnerable 
populations?
    Dr. Ebi. Thank you for the question. And this is a very 
serious concern that there are people who are differentially 
exposed to poor air quality. It's from particulate matter, it's 
from ozone, and it's also from things like pollen. And so 
people in the groups that you mentioned often live in 
communities that have much higher exposure, and it's an 
opportunity, going back to the question we had a few minutes 
ago, of looking at issues like energy efficiency to make sure 
that we reduce how much comes out of our tailpipes so that 
people don't have so much exposure.
    I will note that the United States cannot sell cars in 
China because we cannot meet their emissions standards. So 
there's lots of opportunities to reduce emissions. Reduced 
emissions also from coal-fired power plants is incredibly 
important to protect people's health.
    Ms. Bonamici. Thank you. We also save healthcare costs, and 
we want to do that obviously.
    Dr. Kopp, I noticed in your written testimony there's a 
sentence that you have in there about in 1990 President George 
H.W. Bush signed the Global Warming Response Act of 1990. I 
just want to note that that was a long time ago, and we still 
need to respond.
    The coastal effects chapter of volume 2 of the Fourth 
National Climate Assessment states that 13.1 million people are 
potentially at risk of needing to migrate because of sea-level 
rise by the year 2100, creating drastic consequences for 
socially and economically marginalized and low-income groups. 
In your testimony, you discuss how climate change is an 
infrastructure challenge. We're having a lot of infrastructure 
conversations here on the Hill. What infrastructure investments 
and strategies should Congress address now to prepare for 
rising sea levels and avoid catastrophic damage?
    Dr. Kopp. Well, of course, that's a complicated question 
because infrastructure is fundamentally local, and so the 
answer is going to differ depending on where you are. The 
fundamental thing is if you're building infrastructure that's 
going to be around for 80 years like--it is foolish not to take 
into account changing climate conditions and changing sea-level 
rise for that period and know when you build that what you're 
going to do if it turns out we're on a relatively, say, low 
sea-level rise course and what we're going to do if it turns 
out we're on a relatively high sea-level rise course. We 
aren't--we don't know yet because it depends both on ice sheet 
physics that are still being studied and on greenhouse gas 
emissions that we haven't admitted yet whether we're going to 
see 2 feet of sea-level rise over the course of this century or 
more than 6 feet. And those have very different implications, 
and so we need to be thinking about we can build flexibility 
into our designs and coupling the infrastructure designs and 
deployment to the science that will tell us that information as 
soon as it can.
    Ms. Bonamici. Thank you very much, Madam Chairwoman, and I 
am just about out of time, so I yield back.
    Mrs. Fletcher. Thank you. I'll now recognize Mr. Norman for 
5 minutes.
    Mr. Norman. I want to thank the panel for taking the time.
    Mr. Majkut, I think what's been said here--and I'll ask all 
the panel--this country's--and I'm from South Carolina. I'm a 
real estate developer. Is the figure right? We contribute 20 
percent to emissions as opposed to other countries?
    Dr. Majkut. If I'm correct, it's slightly less than like, 
maybe 15, 16, but ballpark it's right.
    Mr. Norman. OK. And I've heard the other comments that 
everybody needs to pay. How do we--if we're 16 percent--pick 
your figure--how will we make the other 82 percent pay their 
fair share?
    Dr. Majkut. So like, first of all, we can generate a lot of 
innovative technologies here in the United States using our 
research enterprises that are exportable. We can share that 
knowledge through formal arrangements or informal ones or 
simply through exports. We can also demonstrate using a variety 
of policy instruments that it is possible to have a thriving 
economy and a healthy society with lower greenhouse gas 
emissions, and we can export those models as well.
    Mr. Norman. OK. Anybody--any of the other panelists have 
any comments on that?
    Dr. Mahowald. I'd be happy to comment.
    Mr. Norman. Yes, ma'am.
    Dr. Mahowald. The other thing to recognize with this very 
good question is that under the Paris Agreement, countries have 
voluntarily agreed to cut emissions, and people have evaluated 
the cost of these and the relative cost to gross domestic 
product (GDP). And actually the United States' voluntary 
contribution is actually quite low compared to its GDP. So 
other countries are volunteering to do more than their fair 
share. Thank you.
    Mr. Norman. If that's the case, then it's really apparent 
now we need to put a price tag on--prioritize or put a price 
tag, is that right, on what this is going to cost like the 
green energy deal that--we're probably going to vote on. It's a 
nonbinding resolution. But before we go doing away with 
flatulent cows, airplanes, we need to put a price on it, don't 
we?
    Dr. Majkut. Yes, from a public policy perspective we should 
always be cognizant of the costs and benefits of the choices 
we're making and try to be judicious in moving forward, seeking 
low-cost options.
    Mr. Norman. Yes. And in my world, you find your goal, put a 
price tag on it, and then move from there. And I think everyone 
would agree this is going to cost dollars. It's going to cost 
and I think Mr. Kopp--Dr. Kopp, you wouldn't put a figure on 
how much we're going to have to pay for gas, but it's going to 
be more expensive than what we've been paying, is that right?
    Dr. Kopp. Yes, so I think certainly the upfront cost of 
energy will go up, but average costs may go down. And I think 
it's really important that when we look at the costs, we're 
looking at the costs of climate change in comparison; there's a 
lot of economic work going on to try to evaluate those two, and 
these have to be balanced against one another.
    Mr. Norman. They have to be balanced. And would it not be 
fair with increased costs, whatever figure we end up with, 
you're going to rule out some of our most vulnerable 
communities that are not going to have access to energy, as an 
example. What kind of cost would that be to them and their 
health through PTSD, through their mental health? How would we 
put a number on that?
    Dr. Majkut. Well, I mean, I think the intent is not to like 
overly punish any particular class of people or any particular 
technology. It's to put in place a system that we all are going 
to benefit from in the long-term. And that means that for day-
to-day activities that people are going about, that they're 
able to do that in a low-carbon way. Great. What we need to do 
as a society is find ways that that doesn't end up being too 
costly. And frankly, I don't know that it is going to be too 
costly. It's just a matter of making smart investments, leading 
the way to innovation, and then scaling those up through the 
private sector.
    Mr. Norman. Dr. Majkut, if, as an example, this Green New 
Deal were implemented immediately, wouldn't you agree it's 
going to devastate our economy, and other countries are going 
to take up the practices that we are eliminating as in the cows 
that they grow, the other areas that we are going to have to--
they will make the difference up in this even though we don't?
    Dr. Majkut. Yes, in fact, the Green New Deal is a moving 
target, not sure what it is, but based on my understanding from 
the resolution that's been introduced, as well as the things 
that have been said by its primary backers, the 
decarbonization, that is reducing the CO<INF>2</INF> associated 
with economic activity, is one of the cheapest elements of the 
Green New Deal.
    Mr. Norman. Thank you so much. I'm out of time. I yield 
back.
    Mrs. Fletcher. Thank you. The Chair will now recognize Mr. 
McNerney for 5 minutes.
    Mr. McNerney. I thank the Chair and I thank the witnesses 
this morning.
    Natural gas sounds great compared to coal, but the more 
effectiveness of natural gas and reflecting infrared radiation 
compared to carbon dioxide means that if just 2 percent of the 
produced gas escapes into the atmosphere, the efficiency 
benefit over coal is lost. Does anyone on the panel disagree 
with that? No? Does anyone want to make a remark about that? 
OK. Thank you.
    Dr. Mahowald. If I could say something?
    Mr. McNerney. Sure, go ahead.
    Dr. Mahowald. Well, thank you for the question. One of the 
differences between methane and carbon dioxide is how long they 
reside in the atmosphere, so in the short-term methane can be 
very bad for the climate, as well as for air quality, but most 
of the impacts of methane are actually on air quality. But 
methane only lasts about 10 years in the atmosphere whereas 
carbon dioxide, 20 to 30 percent of it is going to last 
centuries to thousands of years.
    So in terms of trying to solve the really big climate 
problem, we should focus on CO<INF>2</INF>. Methane is a big 
problem for air quality, especially and a little bit for 
climate, but we should try to mitigate the methane as much as 
possible. But it is actually lucrative to capture, so it's a 
much easier target.
    Mr. McNerney. That's a good point. We need to capture it--
--
    Dr. Mahowald. Studies show that it's economic--that it's 
actually economically feasible----
    Mr. McNerney. OK.
    Dr. Mahowald [continuing]. To capture much more methane if 
people were careful about it.
    Mr. McNerney. Thank you. Dr. Kopp, how can positive 
feedback loops accelerate climate change?
    Dr. Kopp. Well, there--positive feedback loops are sort of 
a core part of how the climate system works, so to take one 
example, if we put more CO<INF>2</INF> into the atmosphere, 
that causes some amount of the warming. It causes melting of 
ice in the Arctic. It makes the Arctic less reflective, so that 
causes more warming. When we talk about, say, tipping points in 
the climate system, which is language I don't love but is used, 
there--all of those tipping points are driven by positive 
feedbacks having to do with things like, for instance, ice 
sheet ocean interactions leading to rapid loss of the Antarctic 
ice sheet.
    Mr. McNerney. OK. Dr. Ebi, briefly, would you identify some 
research that the Federal Government should be engaged in on 
climate change it's not doing right now?
    Dr. Ebi. Thank you for the question. There are so many 
opportunities to increase the research enterprise in this area. 
I'll speak specifically for health. There is almost no Federal 
research dollars going into research on the health impacts of a 
changing climate and how we can adapt more effectively to that, 
so any kind of investment would be very beneficial for the 
health of Americans and for our healthcare infrastructure.
    Mr. McNerney. Thank you. Dr. Kopp, I understand that most 
or all climate models underestimate or even grossly 
underestimate the rate of climate change. Do you agree with 
that?
    Dr. Kopp. So I think what you're referring to is the 
statement in the climate assessment looking at the ability of 
climate models to reproduce past warm periods, and there's 
definitely a systematic tendency of climate models if we 
compared them to the geological record, not to produce as much 
warming as we see evidenced in the geological record.
    Mr. McNerney. Well, given the state that we're in that the 
climate effects we're seeing now are due to carbon dioxide that 
was introduced into the atmosphere decades ago, do you think we 
can avoid a 1.5 +C increase by just reducing carbon emissions 
alone?
    Dr. Kopp. As I think the 1.5 +C report tells us it is 
possible physically but it may be challenging. If we--we have 
to get greenhouse gas emissions to net zero very quickly if we 
want to do that.
    Mr. McNerney. Well, I think because of that, we need to 
expand our research into climate intervention, and not that I 
want to go there, but given that 1.5-degree change is almost 
inevitable and 2-degree change is likely in my opinion, we need 
to understand the tools that would be available to avoid 
catastrophic change if it comes to that. Would you comment on 
that?
    Dr. Kopp. Yes, so I think it's very clear it would be very 
helpful to have more effective technologies for removing carbon 
dioxide from the atmosphere, so that's one category of climate 
intervention. There's another category that has to do with 
putting--sorry, pollution in the stratosphere to make the 
planet more reflective, and I think that needs a lot of careful 
analysis to see what the risks are and whether that would be 
feasible from both a technological and policy perspective.
    Mr. McNerney. Right. So we need to do research in order to 
understand what the risks and what the potential benefits of 
that would be?
    Dr. Kopp. Yes.
    Mr. McNerney. Thank you. I yield back.
    Mrs. Fletcher. Thank you. The Chair will now recognize Mr. 
Gonzalez for 5 minutes.
    Mr. Gonzalez. Thank you, Madam Chair. Thank you to 
everybody for being here.
    As a newly elected Member of Congress, I just want to 
mention first how excited I am to serve with everyone on this 
Committee and look forward to working on bipartisan solutions 
that will make the American people proud.
    So I believe that climate change is real, and global 
industrial development is a contributing factor. I also believe 
that my first responsibility and my unyielding loyalty is to 
the hardworking men and women of Ohio's 16th District and the 
economy that allows us to heat our homes, fuel our vehicles, 
and build our businesses. As I look at the most recent 
proposal, the Green New Deal, I cannot help but believe that 
this would put a tremendous burden on my community.
    My community is proud of our blue-collar roots. We are 
proud of the products we make, the crops we farm, and the jobs 
that we hold. Simply put, the Green New Deal would threaten all 
of that.
    And we only really need to look to Germany and their what 
I'll call ``Green New Deal Lite,'' for an example. Since 2000, 
Germany has spent an estimated =189 billion or about $220 
billion in renewable energy projects while emissions have been 
stuck at roughly 2009 levels and even rose recently. According 
to the Wall Street Journal, taxes and rising power generation 
costs have made Germany's electric rates the highest in Europe. 
In sum, they've spent a lot of money, raised taxes and energy 
prices, and nothing really happened.
    The proponents of the Green New Deal are proud to admit 
that their plan represents a fundamental remaking of America's 
economy. They believe in a system that relies on a near full 
government takeover of some of our most important industries to 
solve our most pressing problems. With Germany's example and 
common sense as our guide, we simply know that this will not 
work.
    But it's not enough to point fingers. As I said, this is 
real. We do have a problem, and the government can play a role 
in helping solve it. What I believe is the most reasonable path 
forward is a path that does not focus on a Federal takeover of 
our economy but rather a path that fosters a diverse set of 
energy sources and seeks to make alternative energy as 
affordable and reliable as the traditional sources we use 
today. And for that I do not wish to rely on government 
takeovers of our biggest industries but rather I want to focus 
on empowering the American people and unleashing the most 
powerful economic force in human history. If we do this, then 
we will be able to reduce carbon emissions at home but also 
abroad as we are able to commercialize these to-be-developed 
technologies and sell them around the world. And best of all, 
we will do that without having to ask my communities to pay a 
very steep price.
    With that, Dr. Majkut, could you comment briefly on the 
extent to which this is a global issue versus one we can solve 
on our own? And based on your understanding of global 
development patterns specifically in China, India, and Africa, 
how feasible and realistic is it to exclude fossil fuels from 
all sources of energy globally?
    Dr. Majkut. Thank you for the question. I think you've 
really hit the nail on the head, right? The science tells you 
this is a global issue. Atmosphere doesn't care where carbon 
dioxide molecules come from. They have the same warming affect 
no matter where their source was combusted if it's a fossil 
fuel source.
    What the United States can do is work to innovate the 
technologies we believe we'll need to have not just an economy 
similar to today's but one that is much larger globally and 
finding smart ways to make sure those technologies make it to 
market. And that's an advanced research agenda, that's 
industrial policies, and it's market and finance design 
questions.
    Mr. Gonzalez. OK. And then cost is obviously very 
important, and I think we focus a lot on that, which is right. 
But when I speak to our manufacturers, one of the issues that 
they talk about a lot is reliability of the grid. So if we were 
to switch to these technologies, the renewable technologies 
today exclusively, we turned the Green New Deal on today, would 
we even be able to manufacture? Would our manufacturers be able 
to rely on the grid as it's currently constructed?
    Dr. Majkut. I don't think so, no. It seems like the lights 
would go off. But that doesn't mean that you couldn't change 
over the course of a few decades, which is what we're trying to 
do.
    Mr. Gonzalez. Right. And then my last question and I hate 
these up or down ones, so I apologize, but when you think about 
the Green New Deal as you've seen it--and I know the details 
need to be fleshed out--do you believe that is a realistic path 
forward?
    Dr. Majkut. No, sir. I think----
    Mr. Gonzalez. Thank you.
    Dr. Majkut [continuing]. It's a broad progressive agenda 
greenwashed by some climate details.
    Mr. Gonzalez. Thank you. And I yield back the balance of my 
time.
    Mrs. Fletcher. Thank you. The Chair will now recognize Mr. 
Cohen for 5 minutes.
    Mr. Cohen. Thank you, Madam Chair. First, I believe the New 
Green Deal is aspirational, and I think it's important that it 
puts attention on the dangers to our planet at this time and 
the urgency of our actions. Some of the specifics certainly 
aren't going to happen any time soon. Some of them will 
probably never happen at all. But the concept of putting 
people's minds and attentions to climate change is very 
important. Does anybody disagree that it's not an important 
matter to inform the public of the urgency of the changes that 
will occur to our planet? Thank you.
    That's why I'm a sponsor of the bill because it brings 
attention to the issue. It's getting warmer and warmer, hotter 
and hotter, more violent weather, hurricanes because of the 
warming oceans and currents, and rising levels--the sea level, 
endangering what we've known. I've read that Miami Beach could 
very easily be underwater and it oftentimes has water on 
Collins Avenue that they have to pump. I think where we ought 
to concentrate on is Mar-a-Lago and what are the climate 
consequences to Mar-a-Lago if we don't act? Can anybody give me 
an idea about how long it might be before the oceans rise to a 
level to where Mar-a-Lago might be underwater?
    Dr. Kopp. So I don't recall exactly how high Mar-a-Lago is.
    Mr. Cohen. It depends on the night and who's sponsoring the 
party I understand.
    Dr. Kopp. But we could be looking at sea-level rise 
anywhere between 2 and 6 feet, and I think under--in this 
century, depending partially, as I said, on ice sheet physics 
and partially on how much CO<INF>2</INF> we put into the 
atmosphere. And my suspicion--because I have actually looked at 
this before; I just don't recall the details--is that certainly 
under those higher scenarios you might be looking at permanent 
flooding to some of that property. \1\
---------------------------------------------------------------------------
    \1\ Based on Climate Central's Surging Seas Risk Zone Map 
(sealevel.climatecentral.org), much of the golf course at Mar-a-Lago 
floods at a water level about 3 feet above the current high-tide line, 
and the swimming pool floods at a water level of about 5 feet above the 
current high-tide line. Currently, the water level reaches about 1 foot 
above the high-tide line about once a year. Thus, the Mar-a-Lago golf 
course would be expected to flood annually with about 2 feet of sea-
level rise, a level that will most likely be exceeded in south Florida 
in the 2060s or 2070s under a high-emissions scenario and around the 
end of the century in a low-emissions scenario. The swimming pool would 
be expected to flood annually with about 4 feet of sea-level rise. 
Under a high-emissions scenario, we would estimate that the 4-foot 
threshold has between a 15 and 83 percent chance of being exceeded by 
the end of the century, depending on the approach used to estimate how 
fast Antarctica will melt.
---------------------------------------------------------------------------
    Mr. Cohen. What if the--if this happened, your 2 to 6 
feet--and I know it's decades and whatever, but they're going 
to be----
    Dr. Kopp. Oh, yes.
    Mr. Cohen [continuing]. Generations of people to be Mar-a-
Lagites. Do they--what if they built a big seawall, a big 
beautiful seawall at Mar-a-Lago? Would that do any good against 
the ocean?
    Dr. Kopp. So the challenge in south Florida is that a lot 
of it is limestone that has--is porous, and so that means that 
the ocean water isn't just coming from the side, it's coming 
from underneath. So it's sort of hard to protect south Florida 
only with seawalls.
    Mr. Cohen. That's kind of like El Chapo. He came from 
underneath, he came from over, so the walls wouldn't do any 
good there either.
    People have talked--the gentleman from South Carolina 
talked about the cost of all this and there are costs to doing 
things with industry, but there are tremendous costs if we 
don't do anything. The air-conditioning bill at Mar-a-Lago 
would have to go up as it gets hotter and hotter and hotter. 
Has anybody done a study on the dollar cost, the fiscal cost to 
business if we don't take action?
    Dr. Kopp. So we're part of a collaboration called the 
Climate Impact Lab together with the University of Chicago, 
Berkeley, and Rhodium Group, and those are exactly the sort of 
questions we are working on. We're still working toward some of 
that, but the approach we use is sort of to look at things 
like, for instance, how different years in the past have led to 
different air-conditioning expenditures, take the energy sector 
as an example, and how that varies based on how hot it is 
usually and how wealthy people are and use that to project 
forward. So this is a really cutting-edge area in climate 
research we're sort of working toward using big data approaches 
to do--answer those sorts of questions.
    Mr. Cohen. So a lot of the issues that will arise like the 
use of more air conditioning really militates against poor 
people because they won't have air conditioning at all often or 
can't afford the utilities, and so they bear the brunt of 
climate change in a larger, greater way than wealthy people in 
a climate change burden.
    Dr. Kopp. Yes, and so generally what you find is that the 
poor suffer and the rich can spend to adapt, so they both bear 
costs, but in some cases it's more personal costs, suffering, 
and the other is more monetary.
    Mr. Cohen. And somebody mentioned--which I pretty much 
understand, if we correct certain issues here and improve our--
reduce our reduction--production of CO<INF>2</INF>, that you--
if it doesn't happen in the rest of the world, we've still got 
problems, but isn't the best way to do that the Paris climate 
accords or some climate accords? Does anybody disagree with the 
fact that we ought to a climate treaty where we come together 
and have an accord? We're all in agreement on that? Kumbaya. 
Thank you, and I yield back.
    Mrs. Fletcher. Thank you. The Chair will now recognize Mr. 
Cloud for 5 minutes.
    Mr. Cloud. Thank you, Madam Chair. And may I again wish you 
happy birthday. Thank you all for being here. Mr. Majkut, at 
the beginning of your written testimony, you say that ``There's 
no better innovative force than the private sector, but if you 
really want energy innovation, you need to show innovators that 
there's a market waiting for them.'' Can you speak to what 
recommendations you would encourage for energy innovation in 
the market?
    Dr. Majkut. Sure. I think a lot of things are already in 
place showing energy innovators that there is market access for 
them. The Paris climate agreement is a great example, right? A 
lot of countries are saying they want to reduce greenhouse gas 
emissions, and that incentivizes people to innovate ways of 
doing it.
    Speaking of more at a U.S. national level, I think there's 
a lot of things that could be done on the fiscal side, whether 
that's a carbon price or smarter regulations than we have today 
to create a competitive marketplace. There are intermediate 
steps that can be taken when things aren't quite ready to scale 
into the market. A good example of that would be the 45Q tax 
credits that are presently offered for producers--or people who 
capture carbon and sequester it or use it in some manner at new 
facilities. That gets you your first few. And then on the 
backend there is the scientific and engineering enterprise, 
which reduces the cost of doing all of this.
    Mr. Cloud. Thank you. I hail from Texas, specifically the 
27th District of Texas. It's Gulf Coast. My district includes 
nuclear power. We had the number-one energy-exporting port in 
the Nation. We have wind energy. We have LNG, crude exports, 
very diverse as far as an energy portfolio is concerned. Texas 
is a leader in that, also a leader in wind energy and just 
having generally speaking a diverse portfolio. The Green New 
Deal, however, seeks to limit that to specifically noncarbon-
produced energy in the next 10 years. Is that feasible without 
crippling innovation and economy, or do you think that with new 
technologies, fossil fuels could play a part going forward?
    Dr. Majkut. Two things. One, I'm not a big fan of 
timetables generally. I think we know enough that we should be 
trying to bring low-carbon technology to market. Setting super 
ambitious goals--I understand the impulse. I totally agree, but 
I think you can get in your own way. And where we find 
ourselves today, that's a very ambitious goal for where we've 
been.
    I think the climate doesn't particularly care where energy 
comes from so long as it's not emitting CO<INF>2</INF>, and 
that means that there are a lot of reasons why you'd want to 
pursue a diverse innovation portfolio.
    Mr. Cloud. You say that climate doesn't necessarily care 
where emissions come from. In a sense, too, the market doesn't 
care where the energy source comes from, and the appetite 
globally for energy is growing. And it seems like one can make 
the case in a sense that we've now become the leading exporter 
of energy to the world, which is in essence creating stability 
in the world. People are able to buy energy from us instead of 
countries that hate us. U.S. companies generally also are more 
likely to care about being good stewards of creation so to 
speak than other energy-producing nations. Could the case be 
made that this continued progress in this sort of realm would 
actually have more of a beneficial environmental effect going 
down the line?
    Dr. Majkut. Yes, if I interpret you correctly, I think so. 
Generally, U.S. practices are at the higher end on lots of 
environmental compliance issues. It also means freely available 
low-carbon energy is the thing that's going to power the 21st 
century and make everybody better off.
    Mr. Cloud. And could you also speak to how important a 
thriving economy is to creating innovative solutions?
    Dr. Majkut. It's totally essential. What we seek in the 
Niskanen Center, what I think is best for this issue is an 
economy that's flexible to new information, that provides 
routes for people to finance new projects and find profits 
where they can make them and then generally we want those--as 
long as those are low-carbon options, everybody is better off. 
That's exactly what we're looking to achieve.
    Mr. Cloud. Thank you. I yield my 4 seconds back.
    Mrs. Fletcher. Thank you. The Chair will now recognize Mr. 
Casten for 5 minutes.
    Mr. Casten. Thank you. Look, there is--there is no greater 
threat to our economic well-being, our national security, and 
even our survival as a species than climate change, and I want 
to thank Chair Bernice Johnson for taking it seriously, making 
it a priority of this Committee meeting, and I want to thank 
all of our guests today for your implicit acknowledgment that 
while we have the authority in this room to debate and 
ultimately change the laws of the United States, we have no 
such authority when it comes to the laws of thermodynamics, so 
thank you.
    I'd like to address my first question to Dr. Francis. We--I 
represent the 6th District of Illinois. We recently experienced 
a rather extreme cold snap. And as I think you know and we 
appreciate, these extreme low temperatures have in fact been 
attributed counterintuitively to warming in the Arctic that 
disrupts the jet stream. And yet we have a President who seems 
to think that a cold snap in one location disproves global 
warming. Could you please educate us on how global warming in 
aggregate can lead to periodic polar vortex events in the 
United States?
    Dr. Francis. Yes, thank you very much. It's not a simple 
story, and it's an emerging science research question, although 
the science has been progressing very rapidly in this 
particular connection between what's happening in the far north 
with weather patterns more generally and particularly with 
these extreme cold events in the winter. And what we're 
learning is that there's a region in the Arctic just north of 
western Russia where sea ice has been disappearing probably 
faster than anywhere else. And that particular location is 
special in the sense that when we lose ice in that area, it 
absorbs a lot of extra heat from the sun, which then gets 
returned to the atmosphere, and tends to create a pattern in 
the jet stream that can then influence the true polar vortex, 
which is much higher up in the atmosphere.
    When these conditions all align, it can topple if you will 
the polar vortex, which is a spinning river of air around this 
pool of cold air that sits over the Arctic in the wintertime. 
And when it's a powerful enough punch to that polar vortex, it 
can cause it to deform or even split into different 
circulations, and that's exactly what happened this past winter 
that brought you a new record cold temperature for Illinois. 
One of these pools of cold air from the Arctic drifted down 
over North America and reinforced the cold air that's already 
there during the wintertime. So this connection back to sea ice 
loss is the climate-change connection because that sea ice is 
disappearing because of global warming.
    Mr. Casten. Thank you. While Illinois has seen an increase 
in extremely cold weather, we're also seeing an increase in 
extreme heat events. We saw it back in 1995 with the great heat 
wave in Chicago. A lot of the focus has been on urban impacts. 
There was a recent 2017 study in Environmental Health that 
analyzed heat waves in Illinois and found that there were 
actually significantly higher increases in hospitalizations per 
capita in rural areas.
    And with the consent of the Chair, I'd like to ask 
unanimous consent to enter this study into the record.
    Mrs. Fletcher. Without objection.
    Mr. Casten. Thank you. The--my next question is for Dr. 
Mahowald. The cost of climate--of inaction on climate change is 
high, but over the last two decades we've seen cost of 
renewable technologies fall, lots more opportunities for energy 
efficiency, and at least some initial decoupling of economic 
growth from CO<INF>2</INF> emissions. This is frankly not that 
surprising to me. I don't think--nor to the business community 
because I think we all recognize that when we buy less fossil 
fuel, we actually save money and we have a little bit more 
money in our pocket, notwithstanding some earlier conversations 
about air-conditioner economics. If you invest a little bit 
more capital today to save a lot of money later, that's a good 
thing.
    Dr. Mahowald, you had mentioned in your testimony that 
limiting warming can in fact go hand-in-hand with increasing 
economic prosperity, which I hope means that you agree with the 
points that I just made. I would welcome your thoughts on some 
of the policy changes you would encourage us to take up that 
would both lower CO<INF>2</INF> emissions and incentivize more 
investment in the United States and economic growth.
    Dr. Mahowald. Well, thank you for the question. I want to 
be honest here. I'm actually a physical science expert, but I 
will talk a little bit about what the special report 1.5 has to 
say on the issue. The important thing that we looked at in this 
report is where one can cut emissions in the most economic way 
that also has benefits locally, for example, on air quality or 
ways that you can change people's behavior that makes them 
healthier, as well as address this climate change. For example, 
if Americans and Europeans actually ate the amount of meat and 
dairy that their doctors recommended they do, they would be 
healthier. In addition, this would cut emissions of greenhouse 
gases. So there are a lot of ways that you would save money 
because you're healthier, humans would be better off, Americans 
and Europeans would be better off and always, less hospital 
visits, feel healthier, and at the same time we're trying to 
address climate change. So there's quite a bit in the report 
where there's benefits from climate mitigation that we can feel 
right now.
    In addition, the--just the switch in some policies would 
make it easier for businesses in these innovative new sectors 
to have a stable business environment. And what's happening in 
the United States now is the fragmentation a little bit. Some 
States are more aggressive than others. And so at the Federal 
level it would help trade within the United States if there was 
a little more leveling of the terrain.
    But overall, there are a multitude of policies and 
techniques and technologies that are proposed in this special 
report 1.5 that each individual State and local government, as 
well as the Federal Government, should evaluate that can make 
it so that it's economically beneficial to address climate 
change. Thank you.
    Mr. Casten. Thank you. And I yield back my negative 1 
minute, 30 seconds of time.
    Mrs. Fletcher. Thank you. The Chair will now recognize Mr. 
McAdams for 5 minutes. Oh, I'm sorry.
    Mr. McAdams. Thank you.
    Mrs. Fletcher. I'm sorry, Mr. McAdams.
    Mr. McAdams. Yes.
    Mrs. Fletcher. I didn't see you, Mr. Marshall.
    Mr. McAdams. OK.
    Mrs. Fletcher. I didn't see that you were sitting--hadn't 
gone. I'm sorry. The Chair will now recognize Mr. Marshall for 
5 minutes and then Mr. McAdams.
    Mr. Marshall. OK. Thank you, Madam Chairwoman. Let me make 
my first official words as Ranking Member to wish you a happy 
birthday as well. And I'm looking beside me here--I was going 
to ask all the Members to join me in singing happy birthday so 
the people in the audience are going to have to help me here, 
Lizzie, OK? Happy birthday to you, happy birthday to you, happy 
birthday, dear Lizzie, happy birthday to you.
    Mrs. Fletcher. Thank you very much.
    Mr. Marshall. You're welcome.
    Mrs. Fletcher. Your 5 minutes can begin now.
    Mr. Marshall. OK. All right. Well, I want to just take a 
second and focus on innovation. I'm a physician. I think 
innovation has done more to improve healthcare probably than 
anything I can think of. It has the potential to drive the cost 
of healthcare down more than any legislation that we can write 
up here. And I think of some of the great learning 
institutions, research institutions in Kansas, Kansas State 
University, Kansas University, Wichita State University.
    So, Dr. Majkut, let me ask you. If I'm going to go back, 
I'm going to be visiting with my leaders in those universities, 
what would you be telling them to think about for innovation, 
for research, and where do you see us going? Just give you some 
free rope here and chat a little bit.
    Dr. Majkut. I'm sure I would have a lot of ideas to share 
with them. I think we have a good grapple on the nature of this 
issue, and we have a good sense of what it is that we still 
need, right? Renewable energy is--we talked a little bit about 
today. It's doing well. It's market-competitive in a lot of 
cases, but it's intermittent, right, not just because like the 
sun doesn't shine at night, but sometimes, over the space of 
months or years, you're going to get different weather 
patterns, and that's going to affect things.
    So really what we need to think about are what are the 
characteristics in energy sources that we want going forward 
that we don't already have? So that might be easily 
dispatchable, very resilient, low-carbon energy sources, for 
example. Identify those, understand where you can find the most 
scale, both here in the United States and internationally, and 
pursue them with speed and vigor.
    Mr. Marshall. OK. I think about innovation across the 
country, fracking, some of those types of things are 
opportunities, carbon capture. Would you suggest us developing 
innovation here to help other countries? Do you think we should 
just send money to other countries to help them do things?
    Dr. Majkut. I think we should focus on innovation. All of 
our policies should be--at least as a side benefit, incentivize 
people to innovate new ways of doing things because what we 
really want is for people to do a lot more globally while 
emitting a lot less, and that's an innovation challenge 
primarily.
    Mr. Marshall. OK. What's the coolest innovation thing out 
there that we haven't talked about today?
    Dr. Majkut. Oh, that's interesting. Energy storage, the 
idea that we can find lots of interesting ways either through 
mechanical or chemical means to store a lot of energy is a 
very, I think, an interesting thing. My favorite example is 
very large flywheels like you have in the clutch of your car. 
You can, when you have excess energy, spin them up and when you 
need to take energy out of the storage system, you generate it 
from this massive spinning wheel.
    Mr. Marshall. OK.
    Dr. Majkut. I don't know that that's being deployed, but 
it's a great idea.
    Mr. Marshall. OK. Thank you so much. I yield back.
    Mrs. Fletcher. Thank you. I'll now recognize Mr. McAdams 
for 5 minutes.
    Mr. McAdams. I was going to sing happy birthday to you. You 
beat me to it.
    Mr. Marshall. Oh.
    Mr. McAdams. Thank you, Madam Chair, and I'm happy to be 
here for this hearing and for putting climate science at the 
top of our Committee's priorities for this Congress. I think 
it's an important issue for the entire Congress and happy to 
see us taking it up here on the Science Committee as well.
    Thank you to our witnesses for your--providing your expert 
testimony and really enlightening this conversation.
    I'm excited to join this Committee and to have an 
opportunity to understand the latest in climate research and 
highlight its importance in shaping our policies that will 
result in clean air, better environmental health, and a clean-
energy economy.
    As the former Mayor of Salt Lake County, a county in Utah 
that often sees schoolkids kept inside for recess because the 
air's not safe to breathe. I have four kids myself and was 
shocked to learn that part of their common vocabulary is ``it's 
an air day,'' meaning they have--they don't play outside at 
recess. They come home bouncing off the walls because they've 
been kept inside all day.
    I know how important it is that we address our winter 
inversions in Utah, our summer ozone pollution, but while 
climate change is certainly real and important to us as a--to 
our global--to us as a planet, it's also very important locally 
and the impacts that we feel locally vary from place to place, 
but we see it locally even in Utah. I know how important and 
imperative it is for Utah families to apply sound science to 
the solutions that we seek.
    Utah remains the youngest State in the country, and 
numerous studies document the risk to pregnant mothers, to 
their newborns, and to those with respiratory problems such as 
asthma when they're exposed to dirty air. We've long been aware 
of the harm to older adults with heart and lung ailments as 
well, even the likelihood of premature death.
    Utah is keenly aware of the economic costs of climate 
change as well. When the Wasatch Mountains are not visible due 
to smog, our ability to sell our region to--we're a region 
where tourism is an important part of our economy. The ability 
to sell our region to a new lifestyle-oriented businesses, it's 
greatly diminished.
    Utah has had its share of environmental issues as well, 
devastating environmental issues from last summer's 
catastrophic wildfires to extended drought to the shortening of 
a ski season, first-world problems I recognize, but it does 
have an impact on us when snow melt comes late and melts early. 
We also--in a desert area, much of our watershed is captured 
and stored in the form of snowfall, and then as snow melts, we 
have reservoirs, but as we have less snowfall and more 
rainfall, the ways in which over the last couple of centuries 
we've adapted to living in a desert, will not be adequate as 
climate patterns change and will be expensive for us. We can 
adapt fortunately. Unlike some places, we can adapt, but it 
will be expensive to us locally.
    So I think Utahns support efforts to protect our air, to 
protect our water, to protect our quality of life that we 
experience in our Rocky Mountains, and in fact our early 
pioneer settlers in Utah understood that in an arid landscape 
water is life itself, and anything that threatens the climate 
threatens our ability to sustain life over the long-term.
    As elected leaders, we have the capacity and the 
responsibility to have fact-based discussions about the issues 
of climate and environmental protection, and it is critical to 
our Nation's goals for environmental sustainability, for 
economic prosperity, and our national security.
    So I believe that hearings such as the one today shows that 
we are serious about protecting health and spurring innovation 
to address the challenges that we face to transition to a 
clean-energy economy, and I'm proud to be here and to be part 
of the solution.
    I'm looking forward to working with this Committee to 
advance solutions to our climate crisis and to jumpstart, as 
I've said, a clean-energy economy.
    So my questions--I guess I'm almost out of time, so my 
first question and it may be my only question is to Dr. Ebi. 
The Fourth National Climate Assessment explains how the health 
of vulnerable populations such as older adults and children 
will be disproportionately affected by climate change. What are 
investments in research, not only technology research but also 
research to the health and other areas of research should we 
make to further identify, to mitigate, and maybe even remedy 
these risks?
    Dr. Ebi. Thank you for the question. It is such an 
important issue. As I mentioned before, the total Federal 
investment in this area is really incredibly small. A review by 
the Office of Management and Budget several years ago said that 
the NIH (National Institutes of Health) budget in this area is 
less than 0.02 percent of the budget, and it's likely fallen 
since then. CDC (Centers for Disease Control and Prevention) 
gets a little bit of money to work with communities. So what 
we're seeing are communities who are disadvantaged and don't 
have access to those who can help them. They don't have access 
to the research. Very few Departments of Health have access to 
the kinds of tools that they need. And we've got enormous 
opportunities to build on the research enterprise to improve 
the health of Americans right now. And it would be excellent if 
that investment would take place so that that could start soon.
    Mr. McAdams. Thank you. Thank you, Madam Chair.
    Mrs. Fletcher. Thank you. Next, we'll hear from Ms. Hill 
for 5 minutes.
    Ms. Hill. Thank you, Madam Chair. So to our guests I want 
to thank you so much for your testimony, and I apologize for 
jumping between hearings this morning. But I--based on what 
I've heard so far, my impression is that in this Congress we 
should focus on setting the stage and laying the groundwork for 
the next 20 to 30 years of addressing this issue. I'm hearing 
that we should focus on research, on infrastructure, on 
regulation, on public and private partnerships, and on global 
partnerships and leadership. And I'm wondering from you if you 
can talk--this question is to all of you--about in each of 
those areas, what are just the biggest gaps in research where 
we need to prioritize, the highest priority when it comes to 
infrastructure as we're working on an infrastructure package, 
the biggest concern or need when it comes to regulation, the 
most significant impact we can have in terms of corporate 
incentives related to the public-private partnerships, and when 
it comes to the role of foreign policy on global partnerships 
and leadership. I realize those are a lot of questions, but 
pick the area you want to focus on and then just give it to me.
    Dr. Kopp. So quickly to give everyone--everybody have some 
time, I agree with all of the things you raised. One thing I 
think we need to think about is that this is a 
multigenerational challenge, so as we make the investments 
today--and I'm going to talk about the research enterprise--we 
need to think about, well, how are we building the research 
enterprise to help us deal with the fact that this is a problem 
that's not going away; it's a chronic problem? And so I would 
argue we need to be investing in something comparable to the 
agricultural extension program in our country where we have 
networks of researchers deployed throughout the country who 
serve as bridges from the research community to the people on 
the ground and help build those partnerships and sustain them 
so that they're not dependent upon a grant here or there or 
personality here or there but we're really building the 
sustainable research infrastructure to build a link between 
science and people making adaptation and mitigation decisions 
on the ground.
    Dr. Francis. And maybe just a little more specifically more 
related to my field would be some research priorities perhaps 
that this country has fallen behind in my opinion in terms of 
model development for climate modeling, and I think this is one 
of our primary tools for understanding what our future holds 
based on different scenarios for the future. And also seasonal 
forecast models, so understanding how the climate change is 
going to affect weather patterns, so not so much what the 
weather's going to be tomorrow but getting a bigger lead time 
in weather patterns that will affect agriculture, which we 
talked about earlier, and other aspects to infrastructure, that 
sort of thing.
    Dr. Majkut. I think on the advanced research side focusing 
on having a portfolio of options available. This problem looks 
a lot different today than it did 10 years ago. I think we can 
reasonably expect it'll look pretty different 10 years from 
now. And we want to leave our future policymakers or when 
you're all much senior--more senior, a lot of options on the 
table. I think that's a really important thing because the 
scale of the change that will be needed to meet the goals in 
these reports is substantial, not impossible, but it's 
substantial.
    Ms. Hill. Well, and I think for you in particular, Doctor, 
I was curious about your thoughts on the public-private 
partnerships and the corporate incentives that we might be able 
to put into place.
    Dr. Majkut. I personally--and as an institution we see a 
fairly limited role for public-private partnerships. Largely, I 
think we should be focusing more on market design and 
particularly we support carbon tax in lieu of regulatory 
approaches----
    Ms. Hill. OK.
    Dr. Majkut [continuing]. Which we presently have.
    Ms. Hill. OK.
    Dr. Ebi. I'll add an issue that hasn't been raised is 
multidisciplinary. We've talked about a whole range of risks of 
a changing climate. Those all interact. They don't happen at 
once. They happen together. We're seeing heat waves and 
wildfires. And so making sure that we have the partnerships not 
only with our stakeholders but across the scientific community, 
which requires different thinking about how we conduct our 
research and frankly then how universities are organized to do 
that research. And so there does need to be significant 
incentives to move from a disciplinary-based focus to a much 
broader focus of how we can collectively put together our 
wisdom, working with the knowledge from our stakeholders, to 
come up with the innovative solutions that we need.
    Ms. Hill. Thank you.
    Dr. Mahowald. If I can speak?
    Ms. Hill. OK. I can't quite hear. Yes. I'm looking at the 
TV. I have no idea if you know that I'm talking to you.
    Dr. Mahowald. So I did see you, but thank you for the 
question. I just want to mention also the area of carbon 
dioxide removal, we not only need to be working on mitigation 
and adaptation but a new area of carbon dioxide removal, 
there's a lot of potential in this area, and there's very 
little research money being put into this so far from the 
Federal Government, for example, or from companies. So this is 
a new area that could also be very beneficial for reducing 
climate risk in the future. Thank you.
    Ms. Hill. Thank you so much. Do any of you have anything to 
add in the last 30 seconds? Great. Thank you so much. I yield 
back.
    Mrs. Fletcher. Thank you. The Chair will now recognize Mr. 
Lipinski for 5 minutes.
    Mr. Lipinski. Thank you, Madam Chair. I was just speaking 
at an Introduce a Girl to Engineering Day event, and I was 
saying we need everyone that we can get on board to work on the 
solutions to the big problems that we face. And I mentioned 
specifically climate change being one of these major problems 
that--where we're going to need all of the work that--all the 
best minds and brightest to figure out how we move to a clean-
energy economy. One thing I think that we can do a good job at 
is from the government side is putting more funding into ARPA-E 
(Advanced Research Projects Agency - Energy) to help move some 
of these--get some of these innovations developed, moved 
forward.
    But another thing that I have been supportive of--and 10 
years ago I actually introduced the first bipartisan carbon fee 
bill that was introduced where all the money would go back to 
the public, a fully refunded carbon fee. So I want to ask Dr. 
Majkut, you just briefly mentioned it. Why do you think that 
that would be an especially good way to approach this issue?
    Dr. Majkut. Three reasons. The first is when you take a 
direct run at the problem, which is greenhouse gas emissions, 
you are hopefully finding the lowest-cost option. That way 
you're not playing favorites, renewables versus carbon capture 
versus nuclear, and you're not pre-committing to things. 
Rather, decisionmakers throughout the country, whether they are 
engineers at Exxon Mobil or utility executives, are making 
decisions to favor low-carbon options. And all their efforts 
add up relatively quickly. So there's a strong cost-
effectiveness and a strong efficacy argument there.
    The other reason is--or the second reason is that insofar 
as this is a question of how do we get affordable, reliable, 
low-carbon energy out at scale, mechanisms like carbon pricing 
are the easiest way to achieve scale incentives for all those 
decisionmakers I just mentioned.
    And the third is I think importantly the signal that comes 
from there being congressional intent on climate change for 
problems of these timescales, decades, is very important. It 
provides a lot of certainty for economic firms out in the world 
both here and abroad that the United States is moving in a 
particular direction. In the environment we have now, we don't 
have that.
    Mr. Lipinski. Thank you. Some of the questions have focused 
on, well, what are going to be the negative economic 
consequences from doing something on climate change. I want to 
focus from a scientific standpoint on what are the consequences 
to the U.S. economy that--if we fail to address this and slow 
the rise of greenhouse gases. What do you think--what would you 
worry about the most? So who wants to start? Mr. Kopp?
    Dr. Kopp. Sure. Thank you. So we actually had a paper out 
on that a couple years ago, and we looked at several different 
types of impacts. The two that floated to the top were both 
public health impacts, so the effects on mortality and the 
effects on the ability of people to work outdoors. Both have 
quite large economic impacts. We also see economic impacts 
associated with the stresses that warmer temperatures put on 
the energy system. We see economic impacts from the damages 
that storms cause to the coast. We see economic impacts from 
the effects of warmer temperatures on agriculture. And those 
are just the sort of sectors where we can sort of look at past 
behavior and say something about the future. We also have a 
fair bit of concern about the things that we haven't observed 
yet in the past that might cause risk. So when we start having 
more extreme events happening simultaneously, that's a 
potentially large impact that's harder to assess.
    Mr. Lipinski. Thank you. Who--anyone else want to add 
anything? Dr. Francis?
    Dr. Francis. So just to follow up with--on that a little 
bit, we know that in 2018 the losses due to extreme weather 
were roughly $160 billion just to the United States, and the 
year before, 2017, they were up around $300 billion, so we're 
not talking about small numbers here.
    But I think what keeps me up at night is thinking about my 
own daughter and the world that she's going to face if we do 
nothing, and it--for me the scariest thing is thinking about 
the security issues overseas and how people are going to be 
more miserable and therefore more unhappy, and we're going to 
be dealing with a lot more migration and wars that are the 
result of people just being very unhappy in their situation.
    Mr. Lipinski. That's very sobering, but I think it's a good 
way to end on that concern as we work on moving forward to 
solve this. And I yield back. Thank you.
    Mrs. Fletcher. Thank you.
    Before we bring the hearing to a close, I want to thank our 
witnesses for being here today and testifying before the 
Committee.
    The record will remain open for 2 weeks for additional 
statements for the Members and for any additional questions the 
Committee may want to ask of the witnesses.
    The witnesses are excused, and the hearing is now 
adjourned.
    [Whereupon, at 12:48 p.m., the Committee was adjourned.]

                               Appendix I

                              ----------                              


                   Answers to Post-Hearing Questions




                   Answers to Post-Hearing Questions
Responses by Dr. Robert Kopp

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


Responses by Dr. Jennifer Francis

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


Responses by Dr. Joseph Majkut

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

Responses by Dr. Kristie L. Ebi

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                      Appendix II

                      ----------                              


                   Additional Material for the Record




           Letter submitted by Representative Lizzie Fletcher
           
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]           

             Report submitted by Representative Bill Foster
             
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]             


Full report can be found at: http://www.b-t.energy/reports/
advancing-the-landscape/
            Article submitted by Representative Sean Casten
            
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]            
            


                      <all>
</pre></body></html>
